APPENDIX

1a
__________
APPENDIX A
__________
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WEST VENTURES, L.P., FKA Sleiman
No.
Ventures, L.P.; ANTHONY T. SLEIMAN, Tax
Matters Partner,

19-71134

Petitioners-Appellants,

Tax Ct. No. 24683-10

v.

MEMORANDUM*

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.

Appeal from a Decision of the United States Tax
Court
Submitted July 10, 2020** Seattle, Washington

2a
Before: CLIFTON, D.M. FISHER,*** and M. SMITH,
Circuit Judges.1
West Ventures, L.P. (West Ventures) appeals the
tax court’s order and decision in favor of the
Commissioner. West Ventures argues that the tax
court lacked subject matter jurisdiction to sustain the
Commissioner’s disallowance of a $62,370,000 shortterm capital loss (Loss) declared in its tax filing (Form
1065) for the 1999 tax year. We have jurisdiction under
26 U.S.C. § 7482(a).
The tax court’s rulings on jurisdictional issues are
reviewed de novo. See Gorospe v. Comm’r, 451 F.3d
966, 968 (9th Cir. 2006) (reviewing the tax court’s
dismissal for lack of subject matter jurisdiction de
novo); see also Taproot Admin. Servs., Inc. v. Comm’r,
679 F.3d 1109, 1114 (9th Cir. 2012) (reviewing the tax
court’s grant of summary judgment de novo). Because
the Internal Revenue Code, its associated regulations,
and our case law are clear that the Loss was a
partnership item of West Ventures, the final
This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.
*

The panel unanimously concludes this case is
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).

**

The Honorable D. Michael Fisher, United States
Circuit Judge for the U.S. Court of Appeals for the
Third Circuit, sitting by designation.
***

3a
partnership administrative adjustment (FPAA) was
properly issued to West Ventures, the tax court had
jurisdiction, and we affirm.
1

West Ventures’ main argument on appeal is that, in
seeking to disallow the Loss, the Commissioner
commenced proceedings against the wrong entity, and
thus the tax court lacked jurisdiction. In particular,
West Ventures argues that, according to Tax Equity
and Fiscal Responsibility Act of 1982 (TEFRA), 26
U.S.C. §§ 6221–6234 (2000), the Commissioner’s
FPAA should have been issued to Sleiman Ventures
(Two) LP (Sleiman Two), which is 90% owned by West
Ventures. In statutory terms, West Ventures’
argument is that the Loss is a “partnership item” of
Sleiman Two, not West Ventures. See 26 U.S.C. §
6226(f) (2000) (the tax court has “jurisdiction to
determine all partnership items” of the partnership to
which the FPAA relates).
Pursuant to TEFRA, a partnership item is one that
is “required to be taken into account for the
partnership’s taxable year under any [income tax]
We recognize that the tax court appears to have concluded
that the Loss was an “affected item” of Sleiman Two.
However, “[d]ecisions of the tax court are reviewed on the
same basis as decisions from civil bench trials in the district
court.” MK Hillside Partners v. Comm’r, 826 F.3d 1200,
1203 (9th Cir. 2016) (quoting DHL Corp. & Subsidiaries v.
Comm’r, 285 F.3d 1210, 1216 (9th Cir. 2002). Accordingly,
the tax court’s decision may be affirmed on any ground
supported by the record, even if not relied upon by the tax
court. See Cassirer v. Thyssen-Bornemisza Collection
Found., 862 F.3d 951, 974 (9th Cir. 2017).

1

4a
provision” and that “is more appropriately determined
at the partnership level than at the partner level.” 26
U.S.C. § 6231(a)(3) (2000). When identifying a
partnership item, “[t]he ‘critical element’ is that the
partnership is required to make the determination.”
Greenwald v. Comm’r, 142 T.C. 308, 313–314 (2014)
(quoting
26
C.F.R.
§
301.6231(a)(3)-1(c)(1)).
“Partnership items, such as a partnership’s income,
gain, loss, deductions, or credits, are items that must
be taken into account on a partner’s federal income tax
return and that are determined by the Treasury
Secretary to be ‘more appropriately determined at the
partnership level than at the partner level.’” Candyce
Martin 1999 Irrevocable Tr. v. United States, 739 F.3d
1204, 1210 (9th Cir. 2014) (citation omitted) (quoting
26 U.S.C. § 6231(a)(3) (2000)). “‘[P]artnership losses . .
. are . . . partnership items’ of the partnerships that
initially reported the losses.” Russian Recovery Fund
Ltd. v. United States, 101 Fed. Cl. 498, 505 (2011)
(quoting Sente Inv. Club P’ship v. Comm’r, 95 T.C. 243,
247 (1990)), aff’d, 851 F.3d 1253 (Fed. Cir. 2017).
Moreover, “the IRS must adjust a partnership item at
the partnership level that first produces the loss (or
gain) in question.” Id.
Here, it is undisputed that the Loss was first
reported in West Ventures’ Form 1065, and it was not
reported in Sleiman Two’s Form 1065 for the 1999 tax
year. This makes sense, because the Loss was
produced by West Ventures’ redemption of its
partnership interest in Sleiman Two. Therefore, the
FPAA, to the extent it disallowed the Loss, was
properly issued to West Ventures, the entity that first
produced and reported it.

5a
In Candyce Martin, we specifically rejected West
Ventures’ argument in analogous circumstances.
Analyzing a tax shelter structure almost identical to
the one at issue here, we observed that “the IRS could
have issued an FPAA” to the partnership, like West
Ventures here, that claimed losses stemming from its
redemption of interests in another partnership (here,
Sleiman Two). 739 F.3d at 1212. We repeatedly
referred to those losses, which were analogous to the
Loss, as partnership items of the redeeming entity—in
this case, West Ventures. Id. at 1210–12. And we
rejected the idea that the losses could have originated
with the non-reporting partnership, which in this case
was Sleiman Two. Id. at 1213. Accordingly, Candyce
Martin establishes that, for the purposes of
disallowing the Loss, the FPAA was properly issued to
West Ventures.
West Ventures’ secondary argument, that the FPAA
was untimely, depends on the conclusion that the Loss
was not a partnership item of West Ventures. But, as
described above, we conclude that the Loss was a
partnership item of West Ventures. Accordingly,
without ruling upon the full extent of the scope of the
Form 872-P agreements extending the Commissioner’s
deadline to make assessments related to West
Ventures, the FPAA was timely here.
AFFIRMED.

6a
__________
APPENDIX B
__________
UNITED STATES TAX COURT
WASHINGTON, DC 20217
WEST VENTURES, L.P. F.K.A. SLEIMAN )
VENTURES, L.P., ANTHONY T. SLEIMAN, A )
PARTNER OTHER THAN THE TAX MATTERS
PARTNER,
)
)
Petitioner(s),

)
)

v.

Docket No. 24683-10. )

COMMISSIONER OF INTERNAL REVENUE,

)
)

Respondent

)
)
)

ORDER
On June 8, 2010, respondent sent a notice of final
partnership administrative adjustment (FPAA),
relating to 1999 (year in issue), to West Ventures, L.P.,
(West Ventures) and its partners. On November 8,
2010, Anthony T. Sleiman, a partner other than the
tax matters partner, filed a petition with the Court for
readjustment of West Ventures’ partnership items.
Peter D. Sleiman, on December 10, 2010, filed a notice
of election to participate with the Court. On March 27,

7a
2013, the Court filed respondent’s Motion for Partial
Summary Judgment. The Court, on May 8, 2013, filed
petitioner’s and participant Peter D. Sleiman’s
Objection to Respondent’s Motion for Partial
Summary Judgment. On that same day, the Court
filed petitioner’s Motion for Summary Judgment, and
petitioner’s Memorandum in Support of Petitioner’s
Motion for Summary Judgment. On June 13, 2013, the
Court filed respondent’s Response to Petitioner’s
Motion for Summary Judgment. The Court, on July 15,
2013, filed petitioner’s Reply to Respondent’s
Response to Petitioner’s Motion for Summary
Judgment. Unless otherwise indicated, all section
references are to the Internal Revenue Code relating
to the year in issue, and all Rule references are to the
Tax Court Rules of Practice and Procedure.
West Ventures, a Nevada limited partnership, was
organized in June 1998. West Ventures, Inc., a Nevada
corporation and the general partner of West Ventures
during the year in issue, held a 1% interest. Peter D.
Sleiman, Anthony T. Sleiman, Joseph E. Sleiman, and
Eli T. Sleiman Jr. (the Sleimans) were limited
partners in West Ventures during the year in issue,
and each held a 24.75% interest.
Sleiman Ventures (Two) L.P. (Sleiman Two), a
Delaware limited partnership, was formed on June 25,
1999. West Ventures, Inc., was the general partner of
Sleiman Two at formation, and held a 1% interest.
Sleiman Family Trust I was a limited partner in
Sleiman Two, with a 9% interest. FX Capital LLC, FX
Capital (Two) LLC, FX Capital (Three) LLC, and FX
Capital (Four) LLC (the FX LLCs), were the other
initial limited partners of Sleiman Two, each holding
a 22.5% interest.

8a
The FX LLCs were each owned, individually, by one
of the Sleimans. The FX LLCs each entered into
foreign currency digital options on the Japanese Yen
against the U.S. Dollar (the options). The FX LL’s,
collectively, paid $70,000,000 to acquire long options
and received $69,300,000 for offsetting short options.
The FX LLCs, on July 20, 1999, contributed the
options to Sleiman Two in exchange for limited
partnership interests in Sleiman Two. On December
29, 1999, the FX LLCs contributed their interests in
Sleiman Two to West Ventures, after which West
Ventures held a 90% limited partnership interest in
Sleiman Two.
On October 18, 2000, Sleiman Two filed a Form
1065, U.S. Return of Partnership Income, relating to
its tax year beginning on June 25, 1999 and ending on
December 31, 1999. Sleiman Two reported a $700,000
short-term capital loss relating to the expiration of the
options on Schedule D, Capital Gains and Losses, of its
Form 1065. Sleiman Two issued a Schedule K-1 to
West Ventures, relating to the year in issue, reporting
capital contributions of $630,000 and a $630,000 loss
relating to West Ventures’ allocable share of the loss
relating to the options’ expiration.
West Ventures, on October 16, 2000, filed a Form
1065, relating to the year in issue. On Schedule D,
West Ventures reported a basis of $62,370,000 in
Sleiman Two and reported its interest in Sleiman Two
as worthless, resulting in a $62,370,000 short-term
capital loss. Additionally, West Ventures reported a
$630,000 flowthrough loss from Sleiman Two.
Between 2003 and 2009, West Ventures, Inc., the tax
matters partner for West Ventures, executed seven
Forms 872-P, Consent to Extend the Time to Assess

9a
Tax Attributable to Partnership Items, relating to
West Ventures’ partnership items. The most recent of
those forms extended the period for assessment,
relating to West Venture partnership items, to
January 31, 2011. On the June 8, 2010 FPAA issued to
West
Ventures,
respondent
disallowed
the
$62,370,000 short-term capital loss relating to West
Ventures’ worthless interest in Sleiman Two and the
$630,000 flowthrough loss relating to Sleiman Two.
Respondent has conceded that petitioner is entitled to
the $630,000 loss.
The Court has jurisdiction to determine, in a single
partnership-level proceeding, all partnership items;
the proper allocation of those partnership items among
the partners; and the applicability of any penalty,
addition to tax, or additional amount that relates to an
adjustment of a partnership item. See sec. 6226. The
Court’s jurisdiction over a partnership action is
predicated upon the Commissioner mailing a valid
FPAA to the partnership’s tax matters partner and
the timely filing of a petition by the tax matters
partner or other eligible partner. See secs. 6223(a)(2),
6226(a), (b); Rule 240(c); Seneca, Ltd. v.
Commissioner, 92 T.C. 363,365 (1989), aff’d without
published opinion, 899 F.2d 1225 (9th Cir. 1990).
Petitioner concedes that it was not entitled to the
worthlessness loss it claimed relating to its interest in
Sleiman Two. Petitioner contends, however, that the
FPAA issued by respondent was invalid because it
adjusts partnership items of Sleiman Two, rather than
West Ventures’ partnership items. Respondent is
required to make all determinations relating to
partnership items at the partnership level. See sec.
6221. A partner’s basis in a partnership is an affected

10a
item to the extent it is not a partnership item. See sec.
301.623 l(a)(5)-l(b) Proced. & Admin. Regs. When
identifying a partnership item, “[t]he ‘critical element’
is that the partnership is required to make the
determination.” See Greenwald v. Commissioner, 142
T.C. 308, 313-314 (2014). Sleiman Two did not make
a section 754 election, and thus was not required to
maintain records of its partners’ outside bases. See id.
Accordingly, West Ventures’ outside basis in Sleiman
Two was not a partnership item of Sleiman Two, and
respondent was not required to issue an FPAA to
Sleiman Two.
Petitioner further contends that its outside basis in
Sleiman Two is an affected item of Sleiman Two, and
therefore, any adjustment must be assessed directly
against the indirect partners through computational
adjustments. Deficiency proceedings, or a TEFRA
partnership-level proceeding relating to a tiered
partnership, are generally not required to determine
affected items following a TEFRA partnership-level
proceeding. See secs. 6230(a)(l), 6231(a)(6). There
was no Sleiman Two TEFRA proceeding prior to
respondent issuing an FPAA to West Ventures.
Furthermore, a partner-level proceeding (i.e., a
TEFRA partnership-level proceeding relating to a
tiered partnership) is required to adjust affected items
when a partner-level determination must be made.
See sec. 6230(a)(2)(A)(i). West Ventures’ outside basis
in Sleiman Two can be affected by partner specific
facts (e.g., litigation costs incurred by West Ventures).
See Greenwald v. Commissioner, 142 T.C. at 316.
“Determining that a partner did not incur such a cost
is just as much a partner-level determination.” See id.
Accordingly, respondent correctly issued an FPAA to

11a
West Ventures to adjust West Ventures’ outside basis
in Sleiman Two.
Pursuant to Rule 121, a party may move for
summary judgment if there is no genuine issue as to
any material fact. Respondent has established that no
genuine issue of material fact exists and that he is
entitled to judgment as a matter of law. See
Sundstrand Corp. v. Commissioner, 98 T.C. 518,520
(1992), affd, 17 F.3d 965 (7th Cir. 1994). Accordingly,
partial summary judgment in favor of respondent is
appropriate. Upon due consideration of the foregoing,
it is
ORDERED that petitioner’s Motion for Summary
Judgment, filed May 8, 2013, is denied. It is further
ORDERED that respondent’s Motion for Partial
Summary Judgment, filed March 27, 2013, is granted.
It is further
ORDERED that the parties’ shall, on or before
March 28, 2016, file a joint status report as to the then
present status of this case.
(Signed) Maurice B. Foley Chief Judge
Dated: Washington, D.C.
September 28, 2015

12a
__________
APPENDIX C
__________
UNITED STATES TAX COURT
WASHINGTON, DC 20217
WEST VENTURES, L.P. F.K.A. SLEIMAN )
VENTURES, L.P., ANTHONY T. SLEIMAN, )
TAX MATTERS PARTNER,
)
)
Petitioner(s),
)
)
V.
)
Docket No. 24683-10.
)
COMMISSIONER OF INTERNAL
REVENUE,
)
)
Respondent
)
)
ORDER AND DECISION
Pending before the Court is petitioner’s Motion for
Partial Summary Judgment and first supplement,
filed December 8, 2016. On October 22, 2018, the
parties contacted the Court to discuss the status of this
case. As discussed during the conference call, the
hearing scheduled for October 29, 2018, on petitioner’s
Motion for Partial Summary Judgment and first
supplement was canceled. By Order dated October 22,
2018, jurisdiction was retained by this Division of the
Court, and the parties were directed to file a motion
for entry of decision or a joint status report on or before

13a
November 28, 2018. On December 12, 2018, the parties
filed a joint Motion for Entry of Decision. Therein, the
parties request the Court to enter a decision in this
case pursuant to the Court’s Order, dated September
28, 2015, and the parties’ Stipulation of Settled Issues,
filed November 29, 2018. The parties attached a
proposed decision document to the motion for entry of
decision. The proposed decision reflects that the Court
sustains some of the determinations made in the
Notice
of
Final
Partnership
Administrative
Adjustment (FPAA), that respondent concedes the
imposition of penalties, and that petitioner maintains
its position that the Court lacks subject matter
jurisdiction with respect to its decision in this matter.
Because the Court’s September 28, 2015 Order and the
parties’ Stipulation of Settled Issues cover all of the
issues in dispute in this case, the Court will enter a
decision in accordance with the proposed decision
attached to the motion. Upon due consideration and
for cause, it is
ORDERED that petitioner’s Motion for Summary
Judgment, as supplemented, filed December 8, 2016,
is denied as moot. It is further
ORDERED that the Motion for Entry of Decision,
filed December 12, 2018, is granted. It is further
ORDERED AND DECIDED that pursuant to the
determination of the Court as set forth in its Order,
dated September 28, 2015, and the Stipulation of
Settled Issues, filed November 29, 2018, the following
statement shows the adjustments to the partnership
items of West Ventures, L.P. for the taxable year 1999:

14a
Partnership Item As Reported As Determined
Portfolio Income
(Loss) Interest
Income

$201

$201

Portfolio Income
(Loss) Ordinary
Dividends

378,353

378,353

Portfolio Income
(Loss) Net
Short-Term
Capital Gain
(Loss)

(62,229,911)

Portfolio Income
62,132,935
(Loss) Net Long-Term
Capital Gain
(Loss) - 28%
Deductions Related
to Portfolio Income

140,089

62,132,935

5,346

5,346

Interest Expense
3,809
on Investment Debts

3,809

Investment Income
Included in
Portfolio Income

378,554

378,554

Invest Expenses
Included in
Deductions Related
to Portfolio Income

5,346

5,346

15a
Tax-Exempt
Interest Income
Distributions
of Money

927,719
19,984,739

927,719
19,984,739

It is further
ORDERED AND DECIDED that there are no
accuracy-related penalties applicable under I.R.C. §
6662 (including under I.R.C. §§ 6662(a), 6662(b)(l),
6662(b)(2), 6662(b)(3), 6662(c), 6662(d), 6662(e), and
6662(h)) on any underpayment attributable to
adjustments to the partnership and affected items of
West Ventures, L.P.
(Signed) L. Paige Marvel Judge
ENTERED: FEB 07 2019

16a
__________
APPENDIX D
__________
EFFECTIVE DATE OF 1970 AMENDMENT
Amendment by Pub. L. 91–614 applicable with
respect to gifts made after Dec. 31, 1970, see section
102(e) of Pub. L. 91–614, set out as a note under
section 2501 of this title.
EFFECTIVE DATE OF 1969 AMENDMENT
Amendment by section 101(j)(43), (44) of Pub. L. 91–
172 effective Jan. 1, 1970, see section 101(k)(1) of Pub.
L. 91–172, set out as an Effective Date note under
section 4940 of this title.
Amendment by section 960(a) of Pub. L. 91–172
effective one year after Dec. 30, 1969, see section
962(e) of Pub. L. 91–172, set out as an Effective Date
note under section 7463 of this title.
PLAN AMENDMENTS NOT REQUIRED UNTIL
JANUARY 1, 1989
For provisions directing that if any amendments
made by subtitle A or subtitle C of title XI [§§ 1101–
1147 and 1171–1177] or title XVIII [§§ 1800–1899A] of
Pub. L. 99–514 require an amendment to any plan,
such plan amendment shall not be required to be made
before the first plan year beginning on or after Jan. 1,
1989, see section 1140 of Pub. L. 99–514, as amended,
set out as a note under section 401 of this title.

17a
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6212, 6234,
7436, 7463 of this title.
§ 6215. Assessment of deficiency found by Tax
Court
(a) General rule
If the taxpayer files a petition with the Tax Court,
the entire amount redetermined as the deficiency by
the decision of the Tax Court which has become final
shall be assessed and shall be paid upon notice and
demand from the Secretary. No part of the amount
determined as a deficiency by the Secretary but
disallowed as such by the decision of the Tax Court
which has become final shall be assessed or be
collected by levy or by proceeding in court with or
without assessment.
(b) Cross references
(1) For assessment or collection of the amount
of the deficiency determined by the Tax Court
pending appellate court review, see section 7485.
(2) For dismissal of petition by Tax Court as
affirmation of deficiency as determined by the
Secretary, see section 7459(d).
(3) For decision of Tax Court that tax is
barred by limitation as its decision that there is
no deficiency, see section 7459(e).
(4) For assessment of damages awarded by
Tax Court for instituting proceedings merely for
delay, see section 6673.
(5) For treatment of certain deficiencies as
having been paid, in connection with sale of

18a
surplus war-built vessels, see section 9(b)(8) of
the Merchant Ship Sales Act of 1946 (50 U.S.C.
App. 1742).
(6) For rules applicable to Tax Court
proceedings, see generally subchapter C of
chapter 76.
(7) For extension of time for paying amount
determined as deficiency, see section 6161(b).
(Aug. 16, 1954, ch. 736, 68A Stat. 773; Pub. L. 94–455,
title XIX, § 1906(a)(16), (b)(13)(A), Oct. 4, 1976, 90
Stat. 1825, 1834; Pub. L. 99–514, title XIV, §
1404(c)(2), Oct. 22, 1986, 100 Stat. 2714.)
AMENDMENTS
1986—Subsec. (b)(7), (8). Pub. L. 99–514
redesignated par. (8) as (7) and struck out former par.
(7) which read as follows: ‘‘For proration of deficiency
to installments, see section 6152(c).’’
1976—Pub. L. 94–455, § 1906(b)(13)(A), struck out
‘‘or his delegate’’ after ‘‘Secretary’’ wherever
appearing.
Subsec. (b)(5). Pub. L. 94–455, § 1906(a)(16), struck
out‘‘60 Stat. 48;’’ before ‘‘50 U.S.C. App. 1742’’.
EFFECTIVE DATE OF 1986 AMENDMENT
Amendment by Pub. L. 99–514 applicable to taxable
years beginning after Dec. 31, 1986, see section
1404(d) of Pub. L. 99–514, set out as a note under
section 643 of this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 7436, 7481 of
this title.

19a
§ 6216. Cross references
(1) For procedures relating to receivership
proceedings, see subchapter B of chapter 70.
(2) For procedures relating to jeopardy
assessments, see subchapter A of chapter 70.
(3) For procedures relating to claims against
transferees and fiduciaries, see chapter 71.
(4) For procedure relating to partnership
items, see subchapter C.
(Aug. 16, 1954, ch. 736, 68A Stat. 773; Pub. L.
96–589, § 6(i)(9), Dec. 24, 1980, 94 Stat. 3411; Pub. L.
97–248, title IV, § 402(c)(3), Sept. 3, 1982, 96 Stat.
667.)
AMENDMENTS
1982—Par. (4). Pub. L. 97–248 added par. (4).
1980—Par. (1). Pub. L. 96–589 struck out reference
to bankruptcy proceedings.
EFFECTIVE DATE OF 1982 AMENDMENT
Amendment by Pub. L. 97–248 applicable to
partnership taxable years beginning after Sept. 3,
1982, with provision for the applicability of the
amendment to any partnership taxable year ending
after Sept. 3, 1982, if the partnership, each partner,
and each indirect partner requests such application
and the Secretary of the Treasury or his delegate
consents to such application, see section 407(a)(1), (3)
of Pub. L. 97–248, set out as an Effective Date note
under section 6221 of this title.
EFFECTIVE DATE OF 1980 AMENDMENT

20a
Amendment by Pub. L. 96–589 effective Oct. 1, 1979,
but not applicable to proceedings under Title 11,
Bankruptcy, commenced before Oct. 1, 1979, see
section 7(e) of Pub. L. 96–589, set out as a note under
section 108 of this title.
Subchapter C—Tax Treatment of Partnership
Items
Sec.
6221. Tax treatment determined at partnership
level.
6222. Partner’s return must be consistent with
partnership return or Secretary notified of
inconsistency.
6223. Notice to partners of proceedings.
6224. Participation in administrative proceedings;
waivers; agreements.
6225. Assessments made only after partnership level
proceedings are completed.
6226. Judicial review of final partnership
administrative adjustments.
6227. Administrative adjustment requests.
6228. Judicial review where administrative
adjustment request is not allowed in full.
6229. Period of limitations for making assessments.
6230. Additional administrative provisions.
6231. Definitions and special rules.
[6232. Repealed.]
6233. Extension to entities filing partnership returns,
etc.
6234. Declaratory judgment relating to treatment
of items other than partnership items with
respect to an oversheltered return.
AMENDMENTS

21a
1997—Pub. L. 105–34, title XII, § 1231(c), Aug. 5,
1997, 111 Stat. 1023, added item 6234.
1988—Pub. L. 100–418, title I, § 1941(b)(3)(D),
Aug. 23, 1988, 102 Stat. 1324, struck out item 6232
‘‘Extension of subchapter to windfall profit tax’’.
1984—Pub. L. 98–369, div. A, title VII, §
714(p)(2)(E), July 18, 1984, 98 Stat. 965, added item
6233.
1982—Pub. L. 97–248, title IV, § 402(a), Sept. 3,
1982, 96 Stat. 648, added subchapter C heading and
items 6221 to 6232.
SUBCHAPTER REFERRED TO IN OTHER
SECTIONS
This subchapter is referred to in sections 702, 6012,
6211, 6216, 6240, 6512 of this title.
§ 6221. Tax treatment determined at partnership
level
Except as otherwise provided in this subchapter, the
tax treatment of any partnership item (and the
applicability of any penalty, addition to tax, or
additional amount which relates to an adjustment to a
partnership item) shall be determined at the
partnership level.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 648; amended Pub. L. 105–34, title XII, §
1238(a), Aug. 5, 1997, 111 Stat. 1026.)
AMENDMENTS
1997—Pub. L. 105–34 inserted ‘‘(and the
applicability of any penalty, addition to tax, or
additional amount which relates to an adjustment to a
partnership item)’’ after ‘‘item’’.

22a
EFFECTIVE DATE OF 1997 AMENDMENT
Section 1238(c) of Pub. L. 105–34 provided that: ‘‘The
amendments made by this section [amending this
section and sections 6226 and 6230 of this title] shall
apply to partnership taxable years ending after the
date of the enactment of this Act [Aug. 5, 1997].’’
EFFECTIVE DATE
Section 407(a) of Pub. L. 97–248, as amended by
Pub. L. 99–514, § 2, Oct. 22, 1986, 100 Stat. 2095,
provided that: ‘‘(1) Except as provided in paragraph
(2), the amendments made by sections 402, 403, and
404 [enacting this subchapter and section 1508 of Title
28, Judiciary and Judicial Procedure, amending
sections 702, 6031, 6213, 6216, 6422, 6501, 6504,
6511, 6512, 6515, 7422, 7451, 7456, 7459, 7482, and
7485 of this title and section 1346 of Title 28, and
enacting provisions set out as a note under section
6031 of this title] shall apply to partnership taxable
years beginning after the date of the enactment of this
Act [Sept. 3, 1982].
‘‘(2) Section 6232 of the Internal Revenue Code of
1986 [formerly I.R.C. 1954] shall apply to periods after
December 31, 1982.
‘‘(3) The amendments made by sections 402, 403, and
404 shall apply to any partnership taxable year (or in
the case of section 6232 of such Code, to any period)
ending after the date of the enactment of this Act
[Sept. 3, 1982] if the partnership, each partner, and
each indirect partner requests such application and
the Secretary of the Treasury or his delegate consents
to such application.’’

23a
SHORT TITLE
For short title of title IV of Pub. L. 97–248 as the
‘‘Tax Treatment of Partnership Items Act of 1982’’, see
Short Title of 1982 Amendments note set out under
section 1 of this title.
§ 6222. Partner’s return must be consistent with
partnership return or Secretary notified of
inconsistency
(a) In general
A partner shall, on the partner’s return, treat a
partnership item in a manner which is consistent with
the treatment of such partnership item on the
partnership return.
(b) Notification of inconsistent treatment
(1) In general
In the case of any partnership item, if— (A)(i) the
partnership has filed a return but the partner’s
treatment on his return is (or may be) inconsistent
with the treatment of the item on the partnership
return, or (ii) the partnership has not filed a return,
and (B) the partner files with the Secretary a
statement identifying the inconsistency, subsection (a)
shall not apply to such item.
(2) Partner receiving incorrect information
A partner shall be treated as having complied with
subparagraph (B) of paragraph (1) with respect to a
partnership item if the partner—

24a
(A) demonstrates to the satisfaction of the
Secretary that the treatment of the partnership item
on the partner’s return is consistent with the
treatment of the item on the schedule furnished to the
partner by the partnership, and
(B) elects to have this paragraph apply with respect
to that item.
(c) Effect of failure to notify
In any case—
(1) described in paragraph (1)(A)(i) of subsection
(b), and
(2) in which the partner does not comply with
paragraph (1)(B) of subsection (b), section 6225 shall
not apply to any part of a deficiency attributable to any
computational adjustment required to make the
treatment of the items by such partner consistent with
the treatment of the items on the partnership return.
(d) Addition to tax for failure to comply with
section
For addition to tax in the case of a partner’s
disregard of requirements of this section, see
part II of subchapter A of chapter 68.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 648; amended Pub. L. 99–514, title XV, §
1503(c)(1), Oct. 22, 1986, 100 Stat. 2743; Pub. L. 101–
239, title VII, § 7721(c)(7), Dec. 19, 1989, 103 Stat.
2400.)
AMENDMENTS

25a
1989—Subsec. (d). Pub. L. 101–239 substituted
‘‘part II of subchapter A of chapter 68’’ for ‘‘section
6653(a)’’.
1986—Subsec. (d). Pub. L. 99–514 struck out
‘‘intentional or negligent’’ after ‘‘case of a partner’s’’.
EFFECTIVE DATE OF 1989 AMENDMENT
Amendment by Pub. L. 101–239 applicable to
returns the due date for which (determined without
regard to extensions) is after Dec. 31, 1989, see section
7721(d) of Pub. L. 101–239, set out as a note under
section 461 of this title.
EFFECTIVE DATE OF 1986 AMENDMENT
Amendment by Pub. L. 99–514 applicable to returns
the due date for which (determined without regard to
extensions) is after Dec. 31, 1986, see section 1503(e)
of Pub. L. 99–514, set out as a note under section 6653
of this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6229, 6231 of
this title.
§ 6223. Notice to partners of proceedings
(a) Secretary must give partners notice of
beginning and completion of administrative
proceedings
The Secretary shall mail to each partner whose
name and address is furnished to the Secretary notice
of—

26a
(1) the beginning of an administrative proceeding
at the partnership level with respect to a partnership
item, and
(2) the
final
partnership
administrative
adjustment resulting from any such proceeding.
A partner shall not be entitled to any notice under this
subsection unless the Secretary has received (at least
30 days before it is mailed to the tax matters partner)
sufficient information to enable the Secretary to
determine that such partner is entitled to such notice
and to provide such notice to such partner.
(b) Special rules for partnership with more
than 100 partners
(1) Partner with less than 1 percent interest
Except as provided in paragraph (2), subsection (a)
shall not apply to a partner if—
(A) the partnership has more than 100 partners,
and
(B) the partner has a less than 1 percent interest in
the profits of the partnership.
(2) Secretary must give notice to notice group
If a group of partners in the aggregate having a 5
percent or more interest in the profits
of a
partnership so request and designate one of their
members to receive the notice, the member so
designated shall be treated as a partner to whom
subsection (a) applies.
(c) Information base for Secretary’s notices, etc.

27a
For purposes of this subchapter—
(1) Information on partnership return
Except as provided in paragraphs (2) and (3), the
Secretary shall use the names, addresses, and profits
interests shown on the partnership return.
(2) Use of additional information
The Secretary shall use additional information
furnished to him by the tax matters partner or any
other person in accordance with regulations prescribed
by the Secretary.
(3) Special rule with respect to indirect
partners
If any information furnished to the Secretary under
paragraph (1) or (2)—
(A) shows that a person has a profits interest in the
partnership by reason of ownership of an interest
through 1 or more pass-thru partners, and
(B) contains the name, address, and profits interest
of such person, then the Secretary shall use the name,
address, and profits interest of such person with
respect to such partnership interest (in lieu of the
names, addresses, and profits interests of the passthru partners).
(d) Period for mailing notice
(1) Notice of beginning of proceedings
The Secretary shall mail the notice specified in
paragraph (1) of subsection (a) to each partner entitled

28a
to such notice not later than the 120th day before the
day on which the notice specified in paragraph (2) of
subsection (a) is mailed to the tax matters partner.
(2) Notice of final partnership administrative
adjustment
The Secretary shall mail the notice specified in
paragraph (2) of subsection (a) to each partner entitled
to such notice not later than the 60th day after the day
on which the notice specified in such paragraph (2) was
mailed to the tax matters partner.
(e) Effect of Secretary’s failure to provide notice
(1) Application of subsection
(A) In general
This subsection applies where the Secretary has
failed to mail any notice specified in subsection (a) to
a partner entitled to such notice within the period
specified in subsection (d).
(B) Special rules for partnerships with more
than 100 partners
For purposes of subparagraph (A), any partner
described in paragraph (1) of subsection (b) shall be
treated as entitled to notice specified in subsection (a).
The Secretary may provide such notice—
(i) except as provided in clause (ii), by mailing
notice to the tax matters partner, or
(ii) in the case of a member of a notice group which
qualified under paragraph (2) of subsection (b), by

29a
mailing notice to the partner designated for such
purpose by the group.
(2) Proceedings finished
In any case to which this subsection applies, if at the
time the Secretary mails the partner notice of the
proceeding—
(A) the period within which a petition for review of
a final partnership administrative adjustment under
section 6226 may be filed has expired and no such
petition has been filed, or
(B) the decision of a court in an action begun by
such a petition has become final, the partner may elect
to have such adjustment, such decision, or a
settlement agreement described in paragraph (2) of
section 6224(c) with respect to the partnership taxable
year to which the adjustment relates apply to such
partner. If the partner does not make an election
under the preceding sentence, the partnership items of
the partner for the partnership taxable year to which
the proceeding relates shall be treated as
nonpartnership items.
(3) Proceedings still going on
In any case to which this subsection applies, if
paragraph (2) does not apply, the partner shall be a
party to the proceeding unless such partner elects—
(A) to have a settlement agreement described in
paragraph (2) of section 6224(c) with respect to the
partnership taxable year to which the proceeding
relates apply to the partner, or

30a
(B) to have the partnership items of the partner for
the partnership taxable year to which the proceeding
relates treated as nonpartnership items.
(f) Only one notice of
administrative adjustment

final

partnership

If the Secretary mails a notice of final partnership
administrative adjustment for a partnership taxable
year with respect to a partner, the Secretary may not
mail another such notice to such partner with respect
to the same taxable year of the same partnership in
the absence of a showing of fraud, malfeasance, or
misrepresentation of a material fact.
(g) Tax matters partner must keep partners
informed of proceedings
To the extent and in the manner provided by
regulations, the tax matters partner of a partnership
shall keep each partner informed of all administrative
and judicial proceedings for the adjustment at the
partnership level of partnership items.
(h) Pass-thru partner required to forward notice
(1) In general
If a pass-thru partner receives a notice with respect
to a partnership proceeding from the Secretary, the
tax matters partner, or another pass-thru partner, the
pass-thru partner shall, within 30 days of receiving
that notice, forward a copy of that notice to the person
or persons holding an interest (through the pass-thru
partner) in the profits or losses of the partnership for
the partnership taxable year to which the notice
relates.

31a
(2) Partnership as pass-thru partner
In the case of a pass-thru partner which is a
partnership, the tax matters partner of such
partnership shall be responsible for forwarding copies
of the notice to the partners of such partnership.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 649.)
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6224, 6229,
6230, 6231 of this title.
§
6224.
Participation
in
administrative
proceedings; waivers; agreements
(a) Participation in administrative proceedings
Any partner has the right to participate in any
administrative
proceeding
relating
to
the
determination of partnership items at the partnership
level.
(b) Partner may waive rights
(1) In general
A partner may at any time waive—
(A) any right
subchapter, and

such

partner

has

under

this

(B) any restriction under this subchapter on action
by the Secretary.
(2) Form

32a
Any waiver under paragraph (1) shall be made by a
signed notice in writing filed with the Secretary.
(c) Settlement agreement
In the absence of a showing of fraud, malfeasance, or
misrepresentation of fact—
(1) Binds all parties
A settlement agreement between the Secretary and
1 or more partners in a partnership with respect to the
determination of partnership items for any
partnership taxable year shall (except as otherwise
provided in such agreement) be binding on all parties
to such agreement with respect to the determination
of partnership items for such partnership taxable year.
An indirect partner is bound by any such agreement
entered into by the pass-thru partner unless the
indirect partner has been identified as provided in
section 6223(c)(3).
(2) Other partners have right to enter into
consistent agreements
If the Secretary enters into a settlement agreement
with any partner with respect to partnership items for
any partnership taxable year, the Secretary shall offer
to any other partner who so requests settlement terms
for the partnership taxable year which are consistent
with those contained in such settlement agreement.
Except in the case of an election under paragraph (2)
or (3) of section 6223(e) to have a settlement
agreement described in this paragraph apply, this
paragraph shall apply with respect to a settlement
agreement entered into with a partner before notice of
a final partnership administrative adjustment is

33a
mailed to the tax matters partner only if such other
partner makes the request before the expiration of 150
days after the day on which such notice is mailed to
the tax matters partner.
(3) Tax matters partner may bind certain
other partners
(A) In general
A partner who is not a notice partner (and not a
member of a notice group described in subsection (b)(2)
of section 6223) shall be bound by any settlement
agreement—
(i) which is entered into by the tax matters
partner, and
(ii) in which the tax matters partner expressly
states that such agreement shall bind the other
partners.
(B) Exception
Subparagraph (A) shall not apply to any partner who
(within the time prescribed by the Secretary) files a
statement with the Secretary providing that the tax
matters partner shall not have the authority to enter
into a settlement agreement on behalf of such partner.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 651.)
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6223, 6234,
6601 of this title.

34a
§ 6225. Assessments made only after partnership
level proceedings are completed
(a) Restriction on assessment and collection
Except as otherwise provided in this subchapter, no
assessment of a deficiency attributable to any
partnership item may be made (and no levy or
proceeding in any court for the collection of any such
deficiency may be made, begun, or prosecuted)
before—
(1) the close of the 150th day after the day on
which a notice of a final partnership administrative
adjustment was mailed to the tax matters partner, and
(2) if a proceeding is begun in the Tax Court
under section 6226 during such 150-day period, the
decision of the court in such proceeding has become
final.
(b) Premature action may be enjoined
Notwithstanding section 7421(a), any action which
violates subsection (a) may be enjoined in the proper
court, including the Tax Court. The Tax Court shall
have no jurisdiction to enjoin any action or proceeding
under this subsection unless a timely petition for a
readjustment of the partnership items for the taxable
year has been filed and then only in respect of the
adjustments that are the subject of such petition.
(c) Limit where no proceeding begun
If no proceeding under section 6226 is begun with
respect to any final partnership administrative

35a
adjustment during the 150-day period described in
subsection (a), the deficiency assessed against any
partner with respect to the partnership items to which
such adjustment relates shall not exceed the amount
determined in accordance with such adjustment.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 652; amended Pub. L. 105–34, title XII, §
1239(a), Aug. 5, 1997, 111 Stat. 1027.)
AMENDMENTS
1997—Pub. L. 105–34 substituted ‘‘the proper
court, including the Tax Court. The Tax Court shall
have no jurisdiction to enjoin any action or proceeding
under this subsection unless a timely petition for a
readjustment of the partnership items for the taxable
year has been filed and then only in respect of the
adjustments that are the subject of such petition.’’
for ‘‘the proper court.’’
EFFECTIVE DATE OF 1997 AMENDMENT
Section 1239(f) of Pub. L. 105–34 provided that: ‘‘The
amendments made by this section [amending this
section and sections 6226, 6230, 6501, 6512, 7421,
7459, and 7482 of this title] shall apply to partnership
taxable years ending after the date of the enactment
of this Act [Aug. 5, 1997].’’
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6222, 6230,
7421 of this title.

36a
§ 6226. Judicial review of final partnership
administrative adjustments
(a) Petition by tax matters partner
Within 90 days after the day on which a notice of a
final partnership administrative adjustment is mailed
to the tax matters partner, the tax matters partner
may file a petition for a readjustment of the
partnership items for such taxable year with—
(1) the Tax Court,
(2) the district court of the United States for the
district in which the partnership’s principal place of
business is located, or
(3) the Court of Federal Claims.
(b) Petition by partner other than tax matters
partner
(1) In general
If the tax matters partner does not file a
readjustment petition under subsection (a) with
respect to any final partnership administrative
adjustment, any notice partner (and any 5-percent
group) may, within 60 days after the close of the 90day period set forth in subsection (a), file a petition for
a readjustment of the partnership items for the
taxable year involved with any of the courts described
in subsection (a).
(2) Priority of the Tax Court action
If more than 1 action is brought under paragraph (1)
with respect to any partnership for any partnership

37a
taxable year, the first such action brought in the Tax
Court shall go forward.
(3) Priority outside the Tax Court
If more than 1 action is brought under paragraph (1)
with respect to any partnership for any taxable year
but no such action is brought in the Tax Court, the first
such action brought shall go forward.
(4) Dismissal of other actions
If an action is brought under paragraph (1) in
addition to the action which goes forward under
paragraph (2) or (3), such action shall be dismissed.
(5) Treatment of premature petitions
If—
(A) a petition for a readjustment of partnership
items for the taxable year involved is filed by a notice
partner (or a 5-percent group) during the 90-day
period described in subsection (a), and
(B) no action is brought under paragraph
(1) during the 60-day period described therein with
respect to such taxable year which is not dismissed,
such petition shall be treated for purposes of
paragraph (1) as filed on the last day of such 60-day
period.
(6) Tax matters partner may intervene
The tax matters partner may intervene in any action
brought under this subsection.

38a
(c) Partners treated as parties
If an action is brought under subsection (a) or
(b) with respect to a
partnership taxable year—

partnership

for

any

(1) each person who was a partner in such
partnership at any time during such year shall be
treated as a party to such action, and
(2) the court having jurisdiction of such action shall
allow each such person to participate in the action.
(d) Partner must have interest in outcome
(1) In order to be party to action
Subsection (c) shall not apply to a partner after the
day on which—
(A) the partnership items of such partner for the
partnership taxable year became nonpartnership
items by reason of 1 or more of the events described in
subsection (b) of section 6231, or
(B) the period within which any tax attributable to
such partnership items may be assessed against that
partner expired.
Notwithstanding subparagraph (B), any person
treated under subsection (c) as a party to an action
shall be permitted to participate in such action (or file
a readjustment petition under subsection (b) or
paragraph (2) of this subsection) solely for the purpose
of asserting that the period of limitations for assessing
any tax attributable to partnership items has expired
with respect to such person, and the court having

39a
jurisdiction of such action shall have jurisdiction to
consider such assertion.
(2) To file petition
No partner may file a readjustment petition under
subsection (b) unless such partner would (after the
application of paragraph (1) of this subsection) be
treated as a party to the proceeding.
(e) Jurisdictional requirement for bringing
action in district court or Court of Federal
Claims
(1) In general
A readjustment petition under this section may be
filed in a district court of the United States or the
Court of Federal Claims only if the partner filing the
petition deposits with the Secretary, on or before the
day the petition is filed, the amount by which the tax
liability of the partner would be increased if the
treatment of partnership items on the partner’s return
were made consistent with the treatment of
partnership items on the partnership return, as
adjusted by the final partnership administrative
adjustment. In the case of a petition filed by a 5percent group, the requirement of the preceding
sentence shall apply to each member of the group. The
court may by order provide that the jurisdictional
requirements of this paragraph are satisfied where
there has been a good faith attempt to satisfy such
requirements and any shortfall in the amount
required to be deposited is timely corrected.
(2) Refund on request

40a
If an action brought in a district court of the United
States or in the Court of Federal Claims is dismissed
by reason of the priority of a Tax Court action under
paragraph (2) of subsection (b), the Secretary shall, at
the request of the partner who made the deposit,
refund the amount deposited under paragraph (1).
(3) Interest payable
Any amount deposited under paragraph (1), while
deposited, shall not be treated as a payment of tax for
purposes of this title (other than chapter 67).
(f) Scope of judicial review
A court with which a petition is filed in accordance
with this section shall have jurisdiction to determine
all partnership items of the partnership for the
partnership taxable year to which the notice of final
partnership administrative adjustment relates, the
proper allocation of such items among the partners,
and the applicability of any penalty, addition to tax, or
additional amount which relates to an adjustment to a
partnership item.
(g) Determination of court reviewable
Any determination by a court under this section
shall have the force and effect of a decision of the Tax
Court or a final judgment or decree of the district court
or the Court of Federal Claims, as the case may be, and
shall be reviewable as such. With respect to the
partnership, only the tax matters partner, a notice
partner, or a 5-percent group may seek review of a
determination by a court under this section.
(h) Effect of decision dismissing action

41a
If an action brought under this section is dismissed
(other than under paragraph (4) of subsection (b)), the
decision of the court dismissing the action shall be
considered as its decision that the notice of final
partnership administrative adjustment is correct, and
an appropriate order shall be entered in the records of
the court.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 653; amended Pub. L. 97–448, title III, §
306(c)(1)(A), Jan. 12, 1983, 96 Stat. 2406; Pub. L. 102–
572, title IX, § 902(b)(2), Oct. 29, 1992, 106 Stat. 4516;
Pub. L. 105–34, title XII, §§ 1238(b)(1), 1239(b),
1240(a), Aug. 5, 1997, 111 Stat. 1026–1028.)
AMENDMENTS
1997—Subsec. (b)(5), (6). Pub. L. 105–34, § 1240(a),
added par. (5) and redesignated former par. (5) as (6).
Subsec. (d)(1). Pub. L. 105–34, § 1239(b), inserted
concluding provisions.
Subsec. (f). Pub. L. 105–34, § 1238(b)(1), substituted
‘‘relates,’’ for ‘‘relates and’’ and inserted ‘‘, and the
applicability of any penalty, addition to tax, or
additional amount which relates to an adjustment to a
partnership item’’ before period at end.
1992—Subsecs. (a)(3), (e), (g). Pub. L. 102–572
substituted ‘‘Court of Federal Claims’’ for ‘‘Claims
Court’’ wherever appearing.
1983—Subsec. (g). Pub. L. 97–448 substituted
‘‘With respect to the partnership, only the tax matters
partner’’ for ‘‘Only the tax matters partner’’.

42a
EFFECTIVE DATE OF 1997 AMENDMENT
Amendment by section 1238(b)(1) of Pub. L. 105–34
applicable to partnership taxable years ending after
Aug. 5, 1997, see section 1238(c) of Pub. L. 105–34,
set out as a note under section 6221 of this title.
Amendment by section 1239(b) of Pub. L. 105–34
applicable to partnership taxable years ending after
Aug. 5, 1997, see section 1239(f) of Pub. L. 105–34, set
out as a note under section 6225 of this title.
Section 1240(b) of Pub. L. 105–34 provided that:
‘‘The amendment made by this section [amending this
section] shall apply to petitions filed after the date of
the enactment of this Act [Aug. 5, 1997].’’
EFFECTIVE DATE OF 1992 AMENDMENT
Amendment by Pub. L. 102–572 effective Oct. 29,
1992, see section 911 of Pub. L. 102–572, set out as a
note under section 171 of Title 28, Judiciary and
Judicial Procedure.
EFFECTIVE DATE OF 1983 AMENDMENT
Amendment by Pub. L. 97–448 effective as if included
in the provisions of the Tax Equity and Fiscal
Responsibility Act of 1982, Pub. L. 97–248, to which
such amendment relates, see section 311(d) of Pub. L.
97–448, set out as a note under section 31 of this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6223, 6225, 6228,
6229, 6230, 6234, 7451, 7459, 7482, 7485 of this title;
title 28 sections 1346, 1508.

43a
§ 6227. Administrative adjustment requests
(a) General rule
A partner may file a request for an administrative
adjustment of partnership items for any partnership
taxable year at any time which is—
(1) within 3 years after the later of—
(A) the date on which the partnership return for
such year is filed, or
(B) the last day for filing the partnership return for
such year (determined without regard to extensions),
and
(2) before the mailing to the tax matters partner of
a notice of final partnership administrative
adjustment with respect to such taxable year.
(b) Special rule in case of extension of period of
limitations under section 6229
The period prescribed by subsection (a)(1) for filing
of a request for an administrative adjustment shall be
extended—
(1) for the period within which an assessment may
be made pursuant to an agreement (or any extension
thereof) under section 6229(b), and
(2) for 6 months thereafter.
(c) Requests by tax matters partner on behalf of
partnership
(1) Substituted return

44a
If the tax matters partner—
(A) files a request
adjustment, and

for

an

administrative

(B) asks that the treatment shown on the request
be substituted for the treatment of partnership items
on the partnership return to which the request relates,
the Secretary may treat the changes shown on such
request as corrections of mathematical or clerical
errors appearing on the partnership return.
(2) Requests
returns

not

treated

as

substituted

(A) In general
If the tax matters partner files an administrative
adjustment request on behalf of the partnership which
is not treated as a substituted return under paragraph
(1), the Secretary may, with respect to all or any part
of the requested adjustments—
(i) without conducting any proceeding, allow or
make to all partners the credits or refunds arising
from the requested adjustments,
(ii) conduct a partnership proceeding under this
subchapter, or
(iii) take no action on the request.
(B) Exceptions
Clause (i) of subparagraph (A) shall not apply with
respect to a partner after the day on which the
partnership items become nonpartnership items by

45a
reason of 1 or more of the events described in
subsection (b) of section 6231.
(3) Request must show effect on distributive
shares
The tax matters partner shall furnish with any
administrative adjustment request on behalf of the
partnership revised schedules showing the effect of
such request on the distributive shares of the partners
and such other information as may be required under
regulations.
(d) Other requests
If any partner files a request for an administrative
adjustment (other than a request described in
subsection (b)), the Secretary may—
(1) process the request in the same manner as a
claim for credit or refund with respect to items which
are not partnership items,
(2) assess any additional tax that would result from
the requested adjustments,
(3) mail to the partner, under subparagraph
(A) of section 6231(b)(1) (relating to items becoming
nonpartnership items), a notice that all partnership
items of the partner for the partnership taxable year
to which such request relates shall be treated as
nonpartnership items, or
(4) conduct a partnership proceeding.
(e) Requests with respect to bad debts or
worthless securities

46a
In the case of that portion of any request for an
administrative adjustment which relates to the
deductibility by the partnership under section 166 of a
debt as a debt which became worthless, or under
section 165(g) of a loss from worthlessness of a
security, the period prescribed in subsection (a)(1)
shall be 7 years from the last day for filing the
partnership return for the year with respect to which
such request is made (determined without regard to
extensions).
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 655; amended Pub. L. 105–34, title XII, §§
1236(a), 1243(a), Aug. 5, 1997, 111 Stat. 1025, 1029.)
AMENDMENTS
1997—Subsecs. (b) to (d). Pub. L. 105–34, § 1236(a),
added subsec. (b) and redesignated former subsecs. (b)
and (c) as (c) and (d), respectively.
Subsec. (e). Pub. L. 105–34, § 1243(a), added subsec.
(e).
EFFECTIVE DATE OF 1997 AMENDMENT
Section 1236(b) of Pub. L. 105–34 provided that:
‘‘The amendment made by this section [amending this
section] shall take effect as if included in the
amendments made by section 402 of the Tax Equity
and Fiscal Responsibility Act of 1982 [Pub. L. 97–248].’
Section 1243(b) of Pub. L. 105–34 provided that:
‘‘(1) IN GENERAL.—The amendment made by
subsection (a) [amending this section] shall take effect
as if included in the amendments made by section 402

47a
of the Tax Equity and Fiscal Responsibility Act of 1982
[Pub. L. 97–248].
‘‘(2) TREATMENT OF REQUESTS FILED BEFORE
DATE OF
ENACTMENT.—In the case of that portion of any
request (filed before the date of the enactment of this
Act [Aug. 5, 1997]) for an administrative adjustment
which relates to the deductibility of a debt as a debt
which became worthless or the deductibility of a loss
from the worthlessness of a security—
‘‘(A) paragraph (2) of section 6227(a) of the Internal
Revenue Code of 1986 shall not apply,
‘‘(B) the period for filing a petition under section
6228 of the Internal Revenue Code of 1986 with
respect to such request shall not expire before the date
6 months after the date of the enactment of this Act,
and
‘‘(C) such a petition may be filed without regard to
whether there was a notice of the beginning of an
administrative proceeding or a final partnership
administrative adjustment.’’
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6228, 6230,
6231, 6422, 6515 of this title.
§ 6228. Judicial review where administrative
adjustment request is not allowed in full
(a) Request on behalf of partnership
(1) In general

48a
If any part of an administrative adjustment request
filed by the tax matters partner under subsection (b) 1
of section 6227 is not allowed by the Secretary, the tax
matters partner may file a petition for an adjustment
with respect to the partnership items to which such
part of the request relates with—
(A) the Tax Court,
(B) the district court of the United States for the
district in which the principal place of business of the
partnership is located, or
(C) the Court of Federal Claims.
(2) Period for filing petition
(A) In general
A petition may be filed under paragraph
(1) with respect to partnership items for a
partnership taxable year only—
(i) after the expiration of 6 months from the date of
filing of the request under section 6227, and
(ii) before the date which is 2 years after the date of
such request.
(B) No petition after notice of beginning of
administrative proceeding
No petition may be filed under paragraph
(1) after the day the Secretary mails to the
partnership a notice of the beginning of an
administrative proceeding with respect to the

49a
partnership taxable year to which such request
relates.
(C) Failure by Secretary to issue timely notice
of adjustment
If the Secretary—
(i) mails the notice referred to in subparagraph (B)
before the expiration of the 2-year period referred to in
clause (ii) of subparagraph (A), and
(ii) fails to mail a notice of final partnership
administrative adjustment with respect to the
partnership taxable year to which the request relates
before the expiration of the period described in section
6229(a) (including any extension by agreement),
subparagraph (B) shall cease to apply with respect to
such request, and the 2-year period referred to in
clause (ii) of subparagraph
(A) shall not expire before the date 6 months after
the expiration of the period described in section
6229(a) (including any extension by agreement).
(D) Extension of time
The 2-year period described in subparagraph (A)(ii)
shall be extended for such period as may be agreed
upon in writing between the tax matters partner and
the Secretary.
(3) Coordination
adjustment

with

administrative

(A) Administrative adjustment before filing of
petition

50a
No petition may be filed under this subsection after
the Secretary mails to the tax matters partner a notice
of final partnership administrative adjustment for the
partnership taxable year to which the request under
subsection (b) 1 of section 6227 relates.
(B) Administrative adjustment after filing but
before hearing of petition
If the Secretary mails to the tax matters partner a
notice of final partnership administrative adjustment
for the partnership taxable year to which the request
under section 6227 relates after the filing of a petition
under this subsection but before the hearing of such
petition, such petition shall be treated as an action
brought under section 6226 with respect to that
administrative adjustment, except that subsection (e)
of section 6226 shall not apply.
(C) Notice must be before expiration of statute
of limitations
A notice of final partnership administrative
adjustment for the partnership taxable year shall be
taken into account under subparagraphs (A) and (B)
only if such notice is mailed before the expiration of
the period prescribed by section 6229 for making
assessments of tax attributable to partnership items
for such taxable year.
(4) Partners treated as party to action
(A) In general
If an action is brought by the tax matters partner
under paragraph (1) with respect to any request for an

51a
adjustment of a partnership item for any taxable
year—
(i) each person who was a partner in such
partnership at any time during the partnership
taxable year involved shall be treated as a party to
such action, and
(ii) the court having jurisdiction of such action shall
allow each such person to participate in the action.
(B) Partners must have interest in outcome
For purposes of subparagraph (A), rules similar to
the rules of paragraph (1) of section 6226(d) shall
apply.
(5) Scope of judicial review
Except in the case described in subparagraph
(B) of paragraph (3), a court with which a petition is
filed in accordance with this subsection shall have
jurisdiction to determine only those partnership
items to which the part of the request under section
6227 not allowed by the Secretary relates and those
items with respect to which the Secretary asserts
adjustments as offsets to the adjustments requested
by the tax matters partner.
(6) Determination of court reviewable
Any determination by a court under this subsection
shall have the force and effect of a decision of the Tax
Court or a final judgment or decree of the district court
or the Court of Federal Claims, as the case may be, and
shall be reviewable as such. With respect to the

52a
partnership, only the tax matters partner, a notice
partner, or a 5-percent group may seek review of a
determination by a court under this subsection.
(b) Other requests
(1) Notice providing
nonpartnership items

that

items

become

If the Secretary mails to a partner, under
subparagraph (A) of section 6231(b)(1) (relating to
items ceasing to be partnership items), a notice that
all partnership items of the partner for the
partnership taxable year to which a timely request for
administrative adjustment under subsection (c) 1 of
section 6227 relates shall be treated as
nonpartnership items—
(A) such request shall be treated as a claim for
credit or refund of an overpayment attributable to
nonpartnership items, and
(B) the partner may bring an action under section
7422 with respect to such claim at any time within 2
years of the mailing of such notice.
(2) Other cases
(A) In general
If the Secretary fails to allow any part of an
administrative adjustment request filed under
subsection (c) 1 of section 6227 by a partner and
paragraph (1) does not apply—
(i) such partner may, pursuant to section 7422,
begin a civil action for refund of any amount due by

53a
reason of the adjustments described in such part of the
request, and
(ii) on the beginning of such civil action, the
partnership items of such partner for the partnership
taxable year to which such part of such request relates
shall be treated as nonpartnership items for purposes
of this subchapter.
(B) Period for filing petition
(i) In general
An action may be begun under subparagraph (A)
with respect to an administrative adjustment request
for a partnership taxable year only—
(I) after the expiration of 6 months from the date of
filing of the request under section 6227, and
(II) before the date which is 2 years after the date of
filing of such request.
(ii) Extension of time
The 2-year period described in subclause
(II) of clause (i) shall be extended for such period as
may be agreed upon in writing between the partner
and the Secretary.
(C) Action
barred
proceeding has begun

after

partnership

No petition may be filed under subparagraph (A)
with respect to an administrative adjustment request
for a partnership taxable year after the Secretary

54a
mails to the partnership a notice of the beginning of a
partnership proceeding with respect to such year.
(D) Failure by Secretary to issue timely notice
of adjustment
If the Secretary—
(i) mails the notice referred to in subparagraph (C)
before the expiration of the 2-year period referred to in
clause (i)(II) of subparagraph (B), and
(ii) fails to mail a notice of final partnership
administrative adjustment with respect to the
partnership taxable year to which the request relates
before the expiration of the period described in section
6229(a) (including any extension by agreement),
subparagraph (C) shall cease to apply with respect to
such request, and the 2-year period referred to in
clause (i)(II) of subparagraph (B) shall not expire
before the date 6 months after the expiration of the
period described in section 6229(a) (including any
extension by agreement).
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 656; amended Pub. L. 97–448, title III, §
306(c)(1)(B), Jan. 12, 1983, 96 Stat. 2406; Pub. L. 102–
572, title IX, § 902(b)(2), Oct. 29, 1992, 106 Stat. 4516.)
REFERENCES IN TEXT
Subsections (b) and (c) of section 6227 of this title,
referred to in subsecs. (a)(1), (3)(A) and (b)(1), (2)(A),
were redesignated subsecs. (c) and (d), respectively, of
section 6227 of this title and a new subsec. (b) was
added by Pub. L. 105–34, title XII, § 1236(a), Aug. 5,
1997, 111 Stat. 1025.

55a
AMENDMENTS
1992—Subsec. (a)(1)(C), (6). Pub. L. 102–572
substituted ‘‘Court of Federal Claims’’ for ‘‘Claims
Court’’.
1983—Subsec. (a)(6). Pub. L. 97–448 substituted
‘‘With respect to the partnership, only the tax matters
partner’’ for ‘‘Only the tax matters partner’’.
EFFECTIVE DATE OF 1992 AMENDMENT
Amendment by Pub. L. 102–572 effective Oct. 29,
1992, see section 911 of Pub. L. 102–572, set out as a
note under section 171 of Title 28, Judiciary and
Judicial Procedure.
EFFECTIVE DATE OF 1983 AMENDMENT
Amendment by Pub. L. 97–448 effective as if
included in the provisions of the Tax Equity and
Fiscal Responsibility Act of 1982, Pub. L. 97–248, to
which such amendment relates, see section 311(d) of
Pub. L. 97–448, set out as a note under section 31 of
this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6230, 6231,
7422, 7451, 7459, 7482, 7485 of this title; title 28
sections 1346, 1508.
§ 6229. Period
assessments
(a) General rule

of

limitations

for

making

56a
Except as otherwise provided in this section, the
period for assessing any tax imposed by subtitle A with
respect to any person which is attributable to any
partnership item (or affected item) for a partnership
taxable year shall not expire before the date which is
3 years after the later of—
(1) the date on which the partnership return for
such taxable year was filed, or
(2) the last day for filing such return for such year
(determined without regard to extensions).
(b) Extension by agreement
(1) In general
The period described in subsection (a) (including an
extension period under this subsection) may be
extended—
(A) with respect to any partner, by an agreement
entered into by the Secretary and such partner, and
(B) with respect to all partners, by an agreement
entered into by the Secretary and the tax matters
partner (or any other person authorized by the
partnership in writing to enter into such an
agreement), before the expiration of such period.
(2) Special rule with respect to debtors in title
11 cases
Notwithstanding any other law or rule of law, if an
agreement is entered into under paragraph (1)(B) and
the agreement is signed by a person who would be the
tax matters partner but for the fact that, at the time

57a
that the agreement is executed, the person is a debtor
in a bankruptcy proceeding under title 11 of the
United States Code, such agreement shall be binding
on all partners in the partnership unless the Secretary
has been notified of the bankruptcy proceeding in
accordance with regulations prescribed by the
Secretary.
(3) Coordination with section 6501(c)(4)
Any agreement under section 6501(c)(4) shall apply
with respect to the period described in subsection (a)
only if the agreement expressly provides that such
agreement applies to tax attributable to partnership
items.
(c) Special rule in case of fraud, etc.
(1) False return
If any partner has, with the intent to evade tax,
signed or participated directly or indirectly in the
preparation of a partnership return which includes a
false or fraudulent item—
(A) in the case of partners so signing or
participating in the preparation of the return, any tax
imposed by subtitle A which is attributable to any
partnership item (or affected item) for the partnership
taxable year to which the return relates may be
assessed at any time, and
(B) in the case of all other partners, subsection (a)
shall be applied with respect to such return by
substituting ‘‘6 years’’ for ‘‘3 years’’.
(2) Substantial omission of income

58a
If any partnership omits from gross income an
amount properly includible therein which is in excess
of 25 percent of the amount of gross income stated in
its return, subsection
(a) shall be applied by substituting ‘‘6 years’’ for ‘‘3
years’’.
(3) No return
In the case of a failure by a partnership to file a
return for any taxable year, any tax attributable to a
partnership item (or affected item) arising in such year
may be assessed at any time.
(4) Return filed by Secretary
For purposes of this section, a return executed by the
Secretary under subsection (b) of section 6020 on
behalf of the partnership shall not be treated as a
return of the partnership.
(d) Suspension
when
Secretary
administrative adjustment

makes

If notice of a final partnership administrative
adjustment with respect to any taxable year is mailed
to the tax matters partner, the running of the period
specified in subsection (a) (as modified by other
provisions of this section) shall be suspended—
(1) for the period during which an action may be
brought under section 6226 (and, if a petition is filed
under section 6226 with respect to such administrative
adjustment, until the decision of the court becomes
final), and

59a
(2) for 1 year thereafter.
(e) Unidentified partner
If—
(1) the name, address, and taxpayer identification
number of a partner are not furnished on the
partnership return for a partnership taxable year, and
(2)(A) the Secretary, before the expiration of the
period otherwise provided under this section with
respect to such partner, mails to the tax matters
partner the notice specified in paragraph (2) of section
6223(a) with respect to such taxable year, or
(B) the partner has failed to comply with subsection
(b) of section 6222 (relating to notification of
inconsistent treatment) with respect to any
partnership item for such taxable year, the period for
assessing any tax imposed by subtitle A which is
attributable to any partnership item (or affected item)
for such taxable year shall not expire with respect to
such partner before the date which is 1 year after the
date on which the name, address, and taxpayer
identification number of such partner are furnished to
the Secretary.
(f) Special rules
(1) Items becoming nonpartnership items
If before the expiration of the period otherwise
provided in this section for assessing any tax imposed
by subtitle A with respect to the partnership items of
a partner for the partnership taxable year, such items
become nonpartnership items by reason of 1 or more of

60a
the events described in subsection (b) of section 6231,
the period for assessing any tax imposed by subtitle A
which is attributable to such items (or any item
affected by such items) shall not expire before the date
which is 1 year after the date on which the items
become nonpartnership items. The period described in
the preceding sentence (including any extension
period under this sentence) may be extended with
respect to any partner by agreement entered into by
the Secretary and such partner.
(2) Special
agreements

rule

for

partial

settlement

If a partner enters into a settlement agreement with
the Secretary with respect to the treatment of some of
the partnership items in dispute for a partnership
taxable year but other partnership items for such year
remain in dispute, the period of limitations for
assessing any tax attributable to the settled items
shall be determined as if such agreement had not been
entered into.
(g) Period of limitations for penalties
The provisions of this section shall apply also in the
case of any addition to tax or an additional amount
imposed under subchapter A of chapter 68 which
arises with respect to any tax imposed under subtitle
A in the same manner as if such addition or additional
amount were a tax imposed by subtitle A.
(h) Suspension during pendency of bankruptcy
proceeding
If a petition is filed naming a partner as a debtor in
a bankruptcy proceeding under title 11 of the United

61a
States Code, the running of the period of limitations
provided in this section with respect to such partner
shall be suspended—
(1) for the period during which the Secretary is
prohibited by reason of such bankruptcy proceeding
from making an assessment, and
(2) for 60 days thereafter.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 659; amended Pub. L. 99–514, title XVIII, §
1875(d)(1), Oct. 22, 1986, 100 Stat. 2896; Pub. L. 100–
647, title I, § 1018(o)(3), Nov. 10, 1988, 102 Stat.
3585; Pub. L. 105–34, title XII, §§ 1233(a)–(c),
1235(a), Aug. 5, 1997, 111 Stat. 1023, 1024.)
AMENDMENTS
1997—Subsec. (b)(2), (3). Pub. L. 105–34, § 1233(c),
added par. (2) and redesignated former par. (2) as (3).
Subsec. (d)(1). Pub. L. 105–34, § 1233(a), substituted
‘‘(and, if a petition is filed under section 6226 with
respect to such administrative adjustment, until the
decision of the court becomes final), and’’ for ‘‘(and, if
an action with respect to such administrative
adjustment is brought during such period, until the
decision of the court in such action becomes final),
and’’.
Subsec. (f). Pub. L. 105–34, § 1235(a), substituted
‘‘Special rules’’ for ‘‘Items becoming nonpartnership
items’’ in heading, designated existing provisions as
par. (1), added heading, and realigned margins, and
added par. (2).

62a
Subsec. (h). Pub. L. 105–34, § 1233(b), added subsec.
(h). 1988—Subsec. (f). Pub. L. 100–647 inserted
sentence at end relating to extension of period with
respect to any partner by agreement entered into by
Secretary and such partner.
1986—Subsec. (g). Pub. L. 99–514 added subsec. (g).
EFFECTIVE DATE OF 1997 AMENDMENT
Section 1233(d) of Pub. L. 105–34 provided that:
‘‘(1) SUBSECTIONS (a) AND (b).—The amendments
made by subsections (a) and (b) [amending this
section] shall apply to partnership taxable years with
respect to which the period under section 6229 of the
Internal Revenue Code of 1986 [26 U.S.C. 6229] for
assessing tax has not expired on or before the date of
the enactment of this Act [Aug. 5, 1997].
‘‘(2) SUBSECTION (c).—The amendment made by
subsection (c) [amending this section] shall apply to
agreements entered into after the date of the
enactment of this Act.’’
Section 1235(b) of Pub. L. 105–34 provided that:
‘‘The amendment made by this section [amending this
section] shall apply to settlements entered into after
the date of the enactment of this Act [Aug. 5, 1997].’’
EFFECTIVE DATE OF 1988 AMENDMENT
Amendment by Pub. L. 100–647 effective, except as
otherwise provided, as if included in the provision of
the Tax Reform Act of 1986, Pub. L. 99–514, to which
such amendment relates, see section 1019(a) of Pub. L.
100–647, set out as a note under section 1 of this title.

63a
EFFECTIVE DATE OF 1986 AMENDMENT
Amendment by Pub. L. 99–514 effective, except as
otherwise provided, as if included in the provisions of
the Tax Reform Act of 1984, Pub. L. 98–369, div. A, to
which such amendment relates, see section 1881 of
Pub. L. 99–514, set out as a note under section 48 of
this title.
PLAN AMENDMENTS NOT REQUIRED UNTIL
JANUARY 1, 1989
For provisions directing that if any amendments
made by subtitle A or subtitle C of title XI [§§ 1101–
1147 and 1171–1177] or title XVIII [§§ 1800–1899A] of
Pub. L. 99–514 require an amendment to any plan,
such plan amendment shall not be required to be made
before the first plan year beginning on or after Jan. 1,
1989, see section 1140 of Pub. L. 99–514, as amended,
set out as a note under section 401 of this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6227, 6228,
6230, 6234, 6255, 6501, 6503, 6504, 6512 of this title.
§ 6230. Additional administrative provisions
(a) Coordination with deficiency proceedings
(1) In general
Except as provided in paragraph (2) or (3),
subchapter B of this chapter shall not apply to the
assessment or collection of any computational
adjustment.

64a
(2) Deficiency proceedings to apply in certain
cases
(A) Subchapter B shall apply to any deficiency
attributable to—
(i) affected items which require partner level
determinations (other than penalties, additions to tax,
and additional amounts that relate to adjustments to
partnership items), or
(ii) items which have become nonpartnership items
(other than by reason of section 6231(b)(1)(C)) and are
described in section 6231(e)(1)(B).
(B) Subchapter B shall be applied separately with
respect to each deficiency described in subparagraph
(A) attributable to each partnership.
(C) Notwithstanding any other law or rule of law,
any notice or proceeding under subchapter B with
respect to a deficiency described in this paragraph
shall not preclude or be precluded by any other notice,
proceeding, or determination with respect to a
partner’s tax liability for a taxable year.
(3) Special rule in case of assertion by
partner’s spouse of innocent spouse relief
(A) Notwithstanding section 6404(b), if the spouse
of a partner asserts that section 6013(e) applies with
respect to a liability that is attributable to any
adjustment to a partnership item (including any
liability for any penalties, additions to tax, or
additional amounts relating to such adjustment), then
such spouse may file with the Secretary within 60 days
after the notice of computational adjustment is mailed

65a
to the spouse a request for abatement of the
assessment specified in such notice. Upon receipt of
such request, the Secretary shall abate the
assessment. Any reassessment of the tax with respect
to which an abatement is made under this
subparagraph shall be subject to the deficiency
procedures prescribed by subchapter B. The period for
making any such reassessment shall not expire before
the expiration of 60 days after the date of such
abatement.
(B) If the spouse files a petition with the Tax Court
pursuant to section 6213 with respect to the request
for abatement described in subparagraph (A), the Tax
Court shall only have jurisdiction pursuant to this
section to determine whether the requirements of
section 6013(e) have been satisfied. For purposes of
such determination, the treatment of partnership
items (and the applicability of any penalties, additions
to tax, or additional amounts) under the settlement,
the final partnership administrative adjustment, or
the decision of the court (whichever is appropriate)
that gave rise to the liability in question shall be
conclusive.
(C) Rules similar to the rules contained in
subparagraphs (B) and (C) of paragraph (2) shall apply
for purposes of this paragraph.
(b) Mathematical and clerical errors appearing
on partnership return
(1) In general
Section 6225 shall not apply to any adjustment
necessary to correct a mathematical or clerical error

66a
(as defined in section 6213(g)(2)) appearing on the
partnership return.
(2) Exception
Paragraph (1) shall not apply to a partner if, within
60 days after the day on which notice of the correction
of the error is mailed to the partner, such partner files
with the Secretary a request that the correction not be
made.
(c) Claims
arising
computations, etc.

out

of

erroneous

(1) In general
A partner may file a claim for refund on the grounds
that—
(A) the Secretary erroneously computed
computational adjustment necessary—

any

(i) to make the partnership items on the partner’s
return consistent with the treatment of the
partnership items on the partnership return, or
(ii) to apply to the partner a settlement, a final
partnership administrative adjustment, or the
decision of a court in an action brought under section
6226 or section 6228(a),
(B) the Secretary failed to allow a credit or to make
a refund to the partner in the amount of the
overpayment attributable to the application to the
partner of a settlement, a final partnership
administrative adjustment, or the decision of a court

67a
in an action brought under section 6226 or section
6228(a), or
(C) the Secretary erroneously imposed any penalty,
addition to tax, or additional amount which relates to
an adjustment to a partnership item.
(2) Time for filing claim
(A) Under paragraph (1)(A) or (C)
Any claim under subparagraph (A) or (C) of
paragraph (1) shall be filed within 6 months after the
day on which the Secretary mails the notice of
computational adjustment to the partner.
(B) Under paragraph (1)(B)
Any claim under paragraph (1)(B) shall be filed
within 2 years after whichever of the following days is
appropriate:
(i)

the day on which the settlement is entered into,

(ii) the day on which the period during which an
action may be brought under section 6226 with respect
to the final partnership administrative adjustment
expires, or
(iii) the day on which the decision of the court
becomes final.
(3) Suit if claim not allowed
If any portion of a claim under paragraph (1) is not
allowed, the partner may bring suit with respect to
such portion within the period specified in subsection

68a
(a) of section 6532 (relating to periods of limitations on
refund suits).
(4) No review of substantive issues
For purposes of any claim or suit under this
subsection, the treatment of partnership items on the
partnership return, under the settlement, under the
final partnership administrative adjustment, or under
the decision of the court (whichever is appropriate)
shall be conclusive. In addition, the determination
under
the
final
partnership
administrative
adjustment or under the decision of the court
(whichever is appropriate) concerning the applicability
of any penalty, addition to tax, or additional amount
which relates to an adjustment to a partnership item
shall also be conclusive. Notwithstanding the
preceding sentence, the partner shall be allowed to
assert any partner level defenses that may apply or to
challenge the amount of the computational
adjustment.
(5) Rules for seeking innocent spouse relief
(A) In general
The spouse of a partner may file a claim for refund
on the ground that the Secretary failed to relieve the
spouse under section 6015 from a liability that is
attributable to an adjustment to a partnership item
(including any liability for any penalties, additions to
tax, or additional amounts relating to such
adjustment).
(B) Time for filing claim

69a
Any claim under subparagraph (A) shall be filed
within 6 months after the day on which the Secretary
mails to the spouse the notice of computational
adjustment referred to in subsection (a)(3)(A).
(C) Suit if claim not allowed
If the claim under subparagraph (B) is not allowed,
the spouse may bring suit with respect to the claim
within the period specified in paragraph (3).
(D) Prior determinations are binding
For purposes of any claim or suit under this
paragraph, the treatment of partnership items (and
the applicability of any penalties, additions to tax, or
additional amounts) under the settlement, the final
partnership administrative adjustment, or the
decision of the court (whichever is appropriate) that
gave rise to the liability in question shall be conclusive.
(d) Special rules with respect to credits or
refunds attributable to partnership items
(1) In general
Except as otherwise provided in this subsection, no
credit or refund of an overpayment attributable to a
partnership item (or an affected item) for a
partnership taxable year shall be allowed or made to
any partner after the expiration of the period of
limitation prescribed in section 6229 with respect to
such partner for assessment of any tax attributable to
such item.
(2) Administrative adjustment request

70a
If a request for an administrative adjustment under
section 6227 with respect to a partnership item is
timely filed, credit or refund of any overpayment
attributable to such partnership item (or an affected
item) may be allowed or made at any time before the
expiration of the period prescribed in section 6228 for
bringing suit with respect to such request.
(3) Claim under subsection (c)
If a timely claim is filed under subsection (c) for a
credit or refund of an overpayment attributable to a
partnership item (or affected item), credit or refund of
such overpayment may be allowed or made at any time
before the expiration of the period specified in section
6532 (relating to periods of limitations on suits) for
bringing suit with respect to such claim.
(4) Timely suit
Paragraph (1) shall not apply to any credit or refund
of any overpayment attributable to a partnership item
(or an item affected by such partnership item) if a
partner brings a timely suit with respect to a timely
administrative adjustment request under section 6228
or a timely claim under subsection (c) relating to such
overpayment.
(5) Overpayments
refunded
requirement that partner file claim

without

In the case of any overpayment by a partner which
is attributable to a partnership item (or an affected
item) and which may be refunded under this
subchapter, to the extent practicable credit or refund
of such overpayment shall be allowed or made without
any requirement that the partner file a claim therefor.

71a
(6) Subchapter B of chapter 66 not applicable
Subchapter B of chapter 66 (relating to limitations
on credit or refund) shall not apply to any credit or
refund of an overpayment attributable to a
partnership item.
(e) Tax matters partner required to furnish
names of partners to Secretary
If the Secretary mails to any partnership the notice
specified in paragraph (1) of section 6223(a) with
respect to any partnership taxable year, the tax
matters partner shall furnish to the Secretary the
name, address, profits interest, and taxpayer
identification number of each person who was a
partner in such partnership at any time during such
taxable year. If the tax matters partner later discovers
that the information furnished to the Secretary was
incorrect or incomplete, the tax matters partner shall
furnish such revised or additional information as may
be necessary.
(f) Failure of tax matters partner, etc., to fulfill
responsibility does not affect applicability of
proceeding
The failure of the tax matters partner, a pass-thru
partner, the representative of a notice group, or any
other representative of a partner to provide any notice
or perform any act required under this subchapter or
under regulations prescribed under this subchapter on
behalf of such partner does not affect the applicability
of any proceeding or adjustment under this subchapter
to such partner.
(g) Date decision of court becomes final

72a
For purposes of section 6229(d)(1) and section
6230(c)(2)(B), the principles of section 7481(a) shall be
applied in determining the date on which a decision of
a district court or the Court of Federal Claims becomes
final.
(h) Examination authority not limited
Nothing in this subchapter shall be construed as
limiting the authority granted to the Secretary under
section 7602.
(i) Time and manner
making elections, etc.

of

filing

statements,

Except as otherwise provided in this subchapter,
each—
(1) statement,
(2) election,
(3) request, and
(4) furnishing of information,
shall be filed or made at such time, in such manner,
and at such place as may be prescribed in regulations.
(j) Partnerships having principal
business outside the United States

place

of

For purposes of sections 6226 and 6228, a principal
place of business located outside the United States
shall be treated as located in the District of Columbia.
(k) Regulations

73a
The Secretary shall prescribe such regulations as
may be necessary to carry out the purposes of this
subchapter. Any reference in this subchapter to
regulations is a reference to regulations prescribed by
the Secretary.
(l) Court rules
Any action brought under any provision of this
subchapter shall be conducted in accordance with such
rules of practice and procedure as may be prescribed
by the Court in which the action is brought.
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 660; amended Pub. L. 98–369, div. A, title VII,
§ 714(p)(2)(A), July 18, 1984, 98 Stat. 964; Pub. L. 99–
514, title XVIII, § 1875(d)(2)(A), Oct. 22, 1986, 100
Stat. 2896; Pub. L. 100–647, title I, § 1018(o)(1),
Nov. 10, 1988, 102 Stat. 3584; Pub. L. 102–572, title
IX, § 902(b)(2), Oct. 29, 1992, 106 Stat. 4516; Pub. L.
105–34, title XII, §§ 1237(a)–(c)(1), 1238(b)(2)–(6),
1239(c)(1), Aug. 5, 1997, 111 Stat. 1025–1028; Pub.
L. 105–206, title III, § 3201(e)(2), July 22, 1998, 112
Stat. 740.)
AMENDMENTS
1998—Subsec. (c)(5)(A). Pub. L. 105–206
substituted ‘‘section 6015’’ for ‘‘section 6013(e)’’.
1997—Subsec. (a)(1). Pub. L. 105–34, § 1237(c)(1),
substituted ‘‘paragraph (2) or (3)’’ for ‘‘paragraph (2)’’.
Subsec. (a)(2)(A)(i). Pub. L. 105–34, § 1238(b)(2),
amended cl. (i) generally. Prior to amendment, cl. (i)
read as follows: ‘‘affected items which require partner
level determinations, or’’.

74a
Subsec. (a)(3). Pub. L. 105–34, § 1237(a), added par.
(3).
Subsec.
(a)(3)(A).
Pub.
L.
105–34,
§
1238(b)(3)(A), inserted ‘‘(including any liability for any
penalties, additions to tax, or additional amounts
relating to such adjustment)’’ after ‘‘partnership item’’.
Subsec. (a)(3)(B). Pub. L. 105–34, § 1238(b)(3)(B),
inserted ‘‘(and the applicability of any penalties,
additions to tax, or additional amounts)’’ after
‘‘partnership items’’.
Subsec. (c)(1)(C). Pub. L. 105–34, § 1238(b)(4), added
subpar. (C).
Subsec. (c)(2)(A). Pub. L. 105–34, § 1238(b)(5),
inserted ‘or (C)’’ after ‘‘(1)(A)’’ in subpar. heading and
substituted ‘‘subparagraph (A) or (C) of paragraph (1)’’
for ‘‘paragraph (1)(A)’’ in text.
Subsec. (c)(4). Pub. L. 105–34, § 1238(b)(6), inserted
at end ‘‘In addition, the determination under the final
partnership administrative adjustment or under the
decision of the court (whichever is appropriate)
concerning the applicability of any penalty, addition to
tax, or additional amount which relates to an
adjustment to a partnership item shall also be
conclusive. Notwithstanding the preceding sentence,
the partner shall be allowed to assert any partner level
defenses that may apply or to challenge the amount of
the computational adjustment.’’
Subsec. (c)(5). Pub. L. 105–34, § 1237(b), added par.
(5).

75a
Subsec.
(c)(5)(A).
Pub.
L.
105–34,
§
1238(b)(3)(C), inserted before period at end ‘‘(including
any liability for any penalties, additions to tax, or
additional amounts relating to such adjustment)’’.
Subsec. (c)(5)(D). Pub. L. 105–34, § 1238(b)(3)(D),
inserted ‘‘(and the applicability of any penalties,
additions to tax, or additional amounts)’’ after
‘‘partnership items’’.
Subsec. (d)(6). Pub. L. 105–34, § 1239(c)(1), struck
out ‘‘(or an affected item)’’ after ‘‘partnership item’’.
1992—Subsec. (g). Pub. L. 102–572 substituted ‘‘Court
of Federal Claims’’ for ‘‘Claims Court’’.
1988—Subsec. (a)(2)(A)(ii). Pub. L. 100–647
inserted ‘‘(other than by reason of section
6231(b)(1)(C))’’ after ‘‘nonpartnership items’’.
1986—Subsec. (a). Pub. L. 99–514 substituted
‘‘Coordination with deficiency proceedings’’ for
‘‘Normal deficiency proceedings do not apply to
computational adjustments’’ as subsec. heading, and
amended text generally. Prior to amendment text read
as follows: ‘‘Subchapter B of this chapter shall not
apply to the assessment or collection of any
computational adjustment.’’ 1984—Subsec. (c)(1)(B).
Pub. L. 98–369 struck out ‘‘(or erroneously computed
the amount of any such credit or refund)’’ after ‘‘section
6228(a)’’.
EFFECTIVE DATE OF 1998 AMENDMENT
Amendment by Pub. L. 105–206 applicable to any
liability for tax arising after July 22, 1998, and any
liability for tax arising on or before such date but
remaining unpaid as of such date, see section

76a
3201(g)(1) of Pub. L. 105–206, set out as a note under
section 6015 of this title.
EFFECTIVE DATE OF 1997 AMENDMENT
Section 1237(d) of Pub. L. 105–34 provided that:
‘‘The amendments made by this section [amending this
section and section 6503 of this title] shall take effect
as if included in the amendments made by section 402
of the Tax Equity and Fiscal Responsibility Act of
1982 [Pub. L. 97–248].’’
Amendment by section 1238(b)(2)–(6) of Pub. L. 105–
34 applicable to partnership taxable years ending
after Aug. 5, 1997, see section 1238(c) of Pub. L. 105–
34, set out as a note under section 6221 of this title.
Amendment by section 1239(c)(1) of Pub. L. 105–34
applicable to partnership taxable years ending after
Aug. 5, 1997, see section 1239(f) of Pub. L. 105–34,
set out as a note under section 6225 of this title.
EFFECTIVE DATE OF 1992 AMENDMENT
Amendment by Pub. L. 102–572 effective Oct. 29,
1992, see section 911 of Pub. L. 102–572, set out as a
note under section 171 of Title 28, Judiciary and
Judicial Procedure.
EFFECTIVE DATE OF 1988 AMENDMENT
Amendment by Pub. L. 100–647 effective, except as
otherwise provided, as if included in the provision of
the Tax Reform Act of 1986, Pub. L. 99–514, to which
such amendment relates, see section 1019(a) of Pub. L.
100–647, set out as a note under section 1 of this title.

77a
EFFECTIVE DATE OF 1986 AMENDMENT
Section 1875(d)(2)(C) of Pub. L. 99–514 provided
that: ‘‘The amendments made by this paragraph
[amending this section and sections 6213 and 6503 of
this title] shall take effect as if included in the Tax
Equity and Fiscal Responsibility Act of 1982 [Pub. L.
97–248].’’
EFFECTIVE DATE OF 1984 AMENDMENT
Amendment by Pub. L. 98–369 effective as if
included in the provision of the Tax Equity and Fiscal
Responsibility Act of 1982, Pub. L. 97–248, to which
such amendment relates, see section 715 of Pub. L. 98–
369, set out as a note under section 31 of this title.
PLAN AMENDMENTS NOT REQUIRED UNTIL
JANUARY 1, 1989
For provisions directing that if any amendments
made by subtitle A or subtitle C of title XI [§§ 1101–
1147 and 1171–1177] or title XVIII [§§ 1800–1899A] of
Pub. L. 99–514 require an amendment to any plan,
such plan amendment shall not be required to be made
before the first plan year beginning on or after Jan. 1,
1989, see section 1140 of Pub. L. 99–514, as amended,
set out as a note under section 401 of this title.
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6213, 6234, 6422,
6503, 6512, 6515, 7422 of this title.
§ 6231. Definitions and special rules
(a) Definitions

78a
For purposes of this subchapter—
(1) Partnership
(A) In general
Except as provided in subparagraph (B), the term
‘‘partnership’’ means any partnership required to file
a return under section 6031(a).
(B) Exception for small partnerships
(i) In general
The term ‘‘partnership’’ shall not include any
partnership having 10 or fewer partners each of whom
is an individual (other than a nonresident alien), a C
corporation, or an estate of a deceased partner. For
purposes of the preceding sentence, a husband and
wife (and their estates) shall be treated as 1 partner.
(ii) Election to have subchapter apply
A partnership (within the meaning of subparagraph
(A)) may for any taxable year elect to have clause (i)
not apply. Such election shall apply for such taxable
year and all subsequent taxable years unless revoked
with the consent of the Secretary.
(2) Partner
The term ‘‘partner’’ means—
(A) a partner in the partnership, and
(B) any other person whose income tax liability
under subtitle A is determined in whole or in part by

79a
taking into account directly or indirectly partnership
items of the partnership.
(3) Partnership item
The term ‘‘partnership item’’ means, with respect to
a partnership, any item required to be taken into
account for the partnership’s taxable year under any
provision of subtitle A to the extent regulations
prescribed by the Secretary provide that, for purposes
of this subtitle, such item is more appropriately
determined at the partnership level than at the
partner level.
(4) Nonpartnership item
The term ‘‘nonpartnership item’’ means an item
which is (or is treated as) not a partnership item.
(5) Affected item
The term ‘‘affected item’’ means any item to the
extent such item is affected by a partnership item.
(6) Computational adjustment
The term ‘‘computational adjustment’’ means the
change in the tax liability of a partner which properly
reflects the treatment under this subchapter of a
partnership item. All adjustments required to apply
the results of a proceeding with respect to a
partnership under this subchapter to an indirect
partner shall be treated as computational
adjustments.
(7) Tax matters partner
The tax matters partner of any partnership is—

80a
(A) the general partner designated as the tax
matters partner as provided in regulations, or
(B) if there is no general partner who has been so
designated, the general partner having the largest
profits interest in the partnership at the close of the
taxable year involved (or, where there is more than 1
such partner, the 1 of such partners whose name
would appear first in an alphabetical listing).
If there is no general partner designated under
subparagraph (A) and the Secretary determines that
it is impracticable to apply subparagraph (B), the
partner selected by the Secretary shall be treated as
the tax matters partner. The Secretary shall, within
30 days of selecting a tax matters partner under the
preceding sentence, notify all partners required to
receive notice under section 6223(a) of the name and
address of the person selected.
(8) Notice partner
The term ‘‘notice partner’’ means a partner who, at
the time in question, would be entitled to notice under
subsection (a) of section 6223 (determined without
regard to subsections (b)(2) and (e)(1)(B) thereof).
(9) Pass-thru partner
The term ‘‘pass-thru partner’’ means a partnership,
estate, trust, S corporation, nominee, or other similar
person through whom other persons hold an interest
in the partnership with respect to which proceedings
under this subchapter are conducted.
(10) Indirect partner

81a
The term ‘‘indirect partner’’ means a person holding
an interest in a partnership through 1 or more passthru partners.
(11) 5-percent group
A 5-percent group is a group of partners who for the
partnership taxable year involved had profits interests
which aggregated 5 percent or more.
(12) Husband and wife
Except to the extent otherwise provided in
regulations, a husband and wife who have a joint
interest in a partnership shall be treated as 1 person.
(b) Items cease to be partnership items in
certain cases
(1) In general
For purposes of this subchapter, the partnership
items of a partner for a partnership taxable year shall
become nonpartnership items as of the date—
(A) the Secretary mails to such partner a
notice that such items shall be treated as
nonpartnership items,

82a
(B) the partner files suit under section 6228(b) after
the Secretary fails to allow an administrative
adjustment request with respect to any of such items,
(C) the Secretary enters into a settlement
agreement with the partner with respect to such
items, or
(D) such change occurs under subsection
(e) of section 6223 (relating to effect of Secretary’s
failure to provide notice) or under subsection (c) of this
section.
(2) Circumstances
permitted

in

which

notice

is

The Secretary may mail the notice referred to in
subparagraph (A) of paragraph (1) to a partner with
respect to partnership items for a partnership taxable
year only if—
(A) such partner—
(i) has complied with subparagraph (B) of section
6222(b)(1) (relating to notification of inconsistent
treatment) with respect to one or more of such items,
and
(ii) has not, as of the date on which the Secretary
mails the notice, filed a request for administrative
adjustments which would make the partner’s
treatment of the item or items with respect to which
the partner complied with subparagraph (B) of section
6222(b)(1) consistent with the treatment of such item
or items on the partnership return, or

83a
(B)(i) such partner has filed a request under section
6227(c) 1 for administrative adjustment of one or more
of such items, and
(ii) the adjustments requested would not make such
partner’s treatment of such items consistent with the
treatment of such items on the partnership return.
(3) Notice must be mailed before beginning of
partnership proceeding
Any notice to a partner under subparagraph (A) of
paragraph (1) with respect to partnership items for a
partnership taxable year shall be mailed before the
day on which the Secretary mails to the tax matters
partner a notice of the beginning of an administrative
proceeding at the partnership level with respect to
such items.
(c) Regulations with respect to certain special
enforcement areas
(1) Applicability of subsection
This subsection applies in the case of—
(A) assessments under section 6851 (relating to
termination assessments of income tax) or section
6861 (relating to jeopardy assessments of income,
estate, gift, and certain excise taxes),
(B) criminal investigations,
(C) indirect methods of proof of income,
(D) foreign partnerships, and

84a
(E) other areas that the Secretary determines by
regulation
to
present
special
enforcement
considerations.
(2) Items may be treated as nonpartnership
items
To the extent that the Secretary determines and
provides by regulations that to treat items as
partnership items will interfere with the effective and
efficient enforcement of this title in any case described
in paragraph (1), such items shall be treated as
nonpartnership items for purposes of this subchapter.
(3) Special rules
The Secretary may prescribe by regulation such
special rules as the Secretary determines to be
necessary to achieve the purposes of this subchapter
in any case described in paragraph (1).
(d) Time for determining
interest in partnership

partner’s

profits

(1) In general
For purposes of section 6223(b) (relating to special
rules for partnerships with more than 100 partners)
and paragraph (11) of subsection (a) (relating to 5percent group), the interest of a partner in the profits
of a partnership for a partnership taxable year shall
be determined—
(A) in the case of a partner whose entire interest in
the partnership is disposed of during such partnership
taxable year, as of the moment immediately before
such disposition, or

85a
(B) in the case of any other partner, as of the close
of the partnership taxable year.
(2) Indirect partners
The Secretary shall prescribe regulations consistent
with the principles of paragraph (1) to be applied in
the case of indirect partners.
(e) Effect of
proceedings

judicial

decisions

in

certain

(1) Determinations at partner level
No judicial determination with respect to the income
tax liability of any partner not conducted under this
subchapter shall be a bar to any adjustment in such
partner’s income tax liability resulting from—
(A) a proceeding with respect to partnership items
under this subchapter, or
(B) a proceeding with respect to items which
become nonpartnership items—
(i) by reason of 1 or more of the events described in
subsection (b), and
(ii) after the appropriate time for including such
items in any other proceeding with respect to
nonpartnership items.
(2) Proceedings under section 6228(a)
No judicial determination in any proceeding under
subsection (a) of section 6228 with respect to any
partnership item shall be a bar to any adjustment in
any other partnership item.

86a
(f) Special rule for deductions, losses, and
credits of foreign partnerships
Except to the extent otherwise provided in
regulations, in the case of any partnership the tax
matters partner of which resides outside the United
States or the books of which are maintained outside
the United States, no deduction, loss, or credit shall be
allowable to any partner unless section 6031 is
complied with for the partnership’s taxable year in
which such deduction, loss, or credit arose at such time
as the Secretary prescribes by regulations.
(g) Partnership return to be determinative of
whether subchapter applies
(1) Determination that subchapter applies
If, on the basis of a partnership return for a taxable
year, the Secretary reasonably determines that this
subchapter applies to such partnership for such year
but such determination is erroneous, then the
provisions of this subchapter are hereby extended to
such partnership (and its items) for such taxable year
and to partners of such partnership.
(2) Determination that subchapter does not
apply
If, on the basis of a partnership return for a taxable
year, the Secretary reasonably determines that this
subchapter does not apply to such partnership for such
year but such determination is erroneous, then the
provisions of this subchapter shall not apply to such
partnership (and its items) for such taxable year or to
partners of such partnership.

87a
(Added Pub. L. 97–248, title IV, § 402(a), Sept. 3, 1982,
96 Stat. 663; amended Pub. L. 98–369, div. A, title VII,
§ 714(p)(2)(B)–(D), (I), July 18, 1984, 98 Stat. 964, 965;
Pub. L. 105–34, title XI, § 1141(b), title XII, §§ 1232(a),
1234(a), Aug. 5, 1997, 111 Stat. 981, 1023, 1024; Pub.
L. 105–206, title III, § 3507(a), July 22, 1998, 112 Stat.
772.)
REFERENCES IN TEXT
Section 6227(c) of this title, referred to in subsec.
(b)(2)(B)(i), was redesignated section 6227(d) of this
title by Pub. L. 105–34, title XII, § 1236(a), Aug. 5,
1997, 111 Stat. 1025.
AMENDMENTS
1998—Subsec. (a)(7). Pub. L. 105–206 inserted at
end ‘‘The Secretary shall, within 30 days of selecting a
tax matters partner under the preceding sentence,
notify all partners required to receive notice under
section 6223(a) of the name and address of the person
selected.’’ 1997—Subsec. (a)(1)(B)(i). Pub. L. 105–34, §
1234(a), reenacted heading of cl. (i) without change
and amended text generally. Prior to amendment, text
read as follows: ‘‘The term ‘partnership’ shall not
include any partnership if—
‘‘(I) such partnership has 10 or fewer partners each
of whom is a natural person (other than a nonresident
alien) or an estate, and
‘‘(II) each partner’s share of each partnership item is
the same as his share of every other item.
For purposes of the preceding sentence, a husband
and wife (and their estates) shall be treated as 1

88a
partner.’’ Subsec. (f). Pub. L. 105–34, § 1141(b),
substituted ‘‘deductions, losses, and’’ for ‘‘losses and’’
in subsec. heading and ‘‘deduction, loss, or’’ for ‘‘loss or’’
in two places in text.
Subsec. (g). Pub. L. 105–34, § 1232(a), added subsec.
(g).
1984—Subsec. (a)(9). Pub. L. 98–369, § 714(p)(2)(B),
substituted ‘‘S corporation’’ for ‘‘electing small
business corporation’’.
Subsec. (b)(2)(B). Pub. L. 98–369, § 714(p)(2)(I),
substituted section ‘‘6227(c)’’ for ‘‘6227(b)’’.
Subsec. (d)(1)(A). Pub. L. 98–369, § 714(p)(2)(C),
amended subpar. (A) generally, substituting ‘‘disposed
of’’ and ‘‘disposition’’ for ‘‘liquidated, sold, or
exchanged’’ and ‘‘liquidation, sale, or exchange’’,
respectively.
Subsec. (f). Pub. L. 98–369, § 714(p)(2)(D),
substituted ‘‘such loss or credit’’ for ‘‘such deduction or
credit’’.
EFFECTIVE DATE OF 1998 AMENDMENT
Pub. L. 105–206, title III, § 3507(b), July 22, 1998,
112 Stat. 772, provided that: ‘‘The amendment made
by this section [amending this section] shall apply
to selections of tax matters partners made by the
Secretary of the Treasury after the date of the
enactment of this Act [July 22, 1998].’’
EFFECTIVE DATE OF 1997 AMENDMENT

89a
Amendment by section 1141(b) of Pub. L. 105–34
applicable to taxable years beginning after Aug. 5,
1997, see section 1141(c) of Pub. L. 105–34, set out as
a note under section 6031 of this title.
Section 1232(b) of Pub. L. 105–34 provided that:
‘‘The amendment made by this section [amending this
section] shall apply to partnership taxable years
ending after the date of the enactment of this Act
[Aug. 5, 1997].’’
Section 1234(b) of Pub. L. 105–34 provided that:
‘‘The amendment made by this section [amending this
section] shall apply to partnership taxable years
ending after the date of the enactment of this Act
[Aug. 5, 1997].’’
EFFECTIVE DATE OF 1984 AMENDMENT
Amendment by Pub. L. 98–369 effective as if
included in the provision of the Tax Equity and Fiscal
Responsibility Act of 1982, Pub. L. 97–248, to which
such amendment relates, see section 715 of Pub. L. 98–
369, set out as a note under section 31 of this title.
SPECIAL RULE FOR CERTAIN
INTERNATIONAL SATELLITE PARTNERSHIPS
Section 406 of Pub. L. 97–248, as amended by Pub.
L. 99–514, § 2, Oct. 22, 1986, 100 Stat. 2095, provided
that: ‘‘Subchapter C of chapter 63 of the Internal
Revenue Code of 1986 [formerly I.R.C. 1954] (relating
to tax treatment of partnership items), section 6031 of
such Code (relating to returns of partnership income),
and section 6046A of such Code (relating to returns as
to interest in foreign partnerships) shall not apply to
the International Telecommunications Satellite

90a
Organization, the International Maritime Satellite
Organization, and any organization which is a
successor of either of such organizations.’’
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6226, 6227,
6228, 6229, 6230, 6234, 6255, 6501, 6511, 6512, 6601,
7422 of this title.
[§ 6232. Repealed. Pub. L. 100–418, title I, §
1941(b)(1), Aug. 23, 1988, 102 Stat. 1323]
Section, added Pub. L. 97–248, title IV, § 402(a),
Sept. 3, 1982, 96 Stat. 666, related to extension of
subchapter provisions, respecting tax treatment of
partnership items, to windfall profit tax.
EFFECTIVE DATE OF REPEAL
Repeal applicable to crude oil removed from the
premises on or after Aug. 23, 1988, see section 1941(c)
of Pub. L. 100–418, set out as an Effective Date of 1988
Amendment note under section 164 of this title.
§ 6233. Extension to entities filing partnership
returns, etc.
(a) General rule
If a partnership return is filed by an entity for a
taxable year but it is determined that the entity is not
a partnership for such year, then, to the extent
provided in regulations, the provisions of this
subchapter are hereby extended in respect of such year
to such entity and its items and to persons holding an
interest in such entity.

91a
(b) Similar rules in certain cases
If a partnership return is filed for any taxable year
but it is determined that there is no entity for such
taxable year, to the extent provided in regulations,
rules similar to the rules of subsection (a) shall apply.
(Added Pub. L. 98–369, div. A, title VII, § 714(p)(1),
July 18, 1984, 98 Stat. 964; amended Pub. L.
104–188, title I, § 1307(c)(3)(B), Aug. 20, 1996, 110
Stat. 1782.)
AMENDMENTS
1996—Subsec. (b). Pub. L. 104–188 reenacted
heading without change and amended text generally.
Prior to amendment, text read as follows: ‘‘If for any
taxable year—
‘‘(1) an entity files a return as an S corporation but
it is determined that the entity was not an S
corporation for such year, or
‘‘(2) a partnership return or S corporation return is
filed but it is determined that there is no entity for
such taxable year, then, to the extent provided in
regulations, rules similar to the rules of subsection (a)
shall apply.’’
EFFECTIVE DATE OF 1996 AMENDMENT
Amendment by Pub. L. 104–188 applicable to taxable
years beginning after Dec. 31, 1996, see section
1317(a) of Pub. L. 104–188, set out as a note under
section 641 of this title.
EFFECTIVE DATE

92a
Section effective as if included in the provision of
the Tax Equity and Fiscal Responsibility Act of 1982,
Pub. L. 97–248, to which such amendment relates, see
section 715 of Pub. L. 98–369, set out as an Effective
Date of 1984 Amendment note under section 31 of this
title.
§ 6234. Declaratory judgment relating to
treatment of items other than partnership items
with respect to an oversheltered return
(a) General rule
If—
(1) a taxpayer files an oversheltered return for a
taxable year,
(2) the Secretary makes a determination with
respect to the treatment of items (other than
partnership items) of such taxpayer for such taxable
year, and
(3) the
adjustments
resulting
from
such
determination do not give rise to a deficiency (as
defined in section 6211) but would give rise to a
deficiency if there were no net loss from partnership
items, the Secretary is authorized to send a notice of
adjustment reflecting such determination to the
taxpayer by certified or registered mail.
(b) Oversheltered return
For purposes of this section, the term ‘‘oversheltered
return’’ means an income tax return which—

93a
(1) shows no taxable income for the taxable year,
and
(2) shows a net loss from partnership items.
(c) Judicial review in the Tax Court
Within 90 days, or 150 days if the notice is addressed
to a person outside the United States, after the day on
which the notice of adjustment authorized in
subsection (a) is mailed to the taxpayer, the taxpayer
may file a petition with the Tax Court for
redetermination of the adjustments. Upon the filing of
such a petition, the Tax Court shall have jurisdiction
to make a declaration with respect to all items (other
than partnership items and affected items which
require partner level determinations as described in
section 6230(a)(2)(A)(i)) for the taxable year to which
the notice of adjustment relates, in accordance with
the principles of section 6214(a). Any such declaration
shall have the force and effect of a decision of the Tax
Court and shall be reviewable as such.
(d) Failure to file petition
(1) In general
Except as provided in paragraph (2), if the taxpayer
does not file a petition with the Tax Court within the
time prescribed in subsection (c), the determination of
the Secretary set forth in the notice of adjustment that
was mailed to the taxpayer shall be deemed to be
correct.
(2) Exception

94a
Paragraph (1) shall not apply after the date that the
taxpayer—
(A) files a petition with the Tax Court within the
time prescribed in subsection (c) with respect to a
subsequent notice of adjustment relating to the same
taxable year, or
(B) files a claim for refund of an overpayment of tax
under section 6511 for the taxable year involved.
If a claim for refund is filed by the taxpayer, then
solely for purposes of determining (for the taxable
year involved) the amount of any computational
adjustment in connection with a partnership
proceeding under this subchapter (other than under
this section) or the amount of any deficiency
attributable to affected items in a proceeding under
section 6230(a)(2), the items that are the subject of the
notice of adjustment shall be presumed to have been
correctly reported on the taxpayer’s return during the
pendency of the refund claim (and, if within the time
prescribed by section 6532 the taxpayer commences a
civil action for refund under section 7422, until the
decision in the refund action becomes final).
(e) Limitations period
(1) In general
Any notice to a taxpayer under subsection (a)
shall be mailed before the expiration of the period
prescribed by section 6501 (relating to the period of
limitations on assessment).
(2) Suspension when Secretary mails notice of
adjustment

95a
If the Secretary mails a notice of adjustment to the
taxpayer for a taxable year, the period of limitations
on the making of assessments shall be suspended for
the period during which the Secretary is prohibited
from making the assessment (and, in any event, if a
proceeding in respect of the notice of adjustment is
placed on the docket of the Tax Court, until the
decision of the Tax Court becomes final), and for 60
days thereafter.
(3) Restrictions on assessment
Except as otherwise provided in section 6851, 6852,
or 6861, no assessment of a deficiency with respect to
any tax imposed by subtitle A attributable to any item
(other than a partnership item or any item affected by
a partnership item) shall be made—
(A) until the expiration of the applicable 90-day or
150-day period set forth in subsection (c) for filing a
petition with the Tax Court, or
(B) if a petition has been filed with the Tax Court,
until the decision of the Tax Court has become final.
(f) Further notices of adjustment restricted
If the Secretary mails a notice of adjustment to the
taxpayer for a taxable year and the taxpayer files a
petition with the Tax Court within the time prescribed
in subsection (c), the Secretary may not mail another
such notice to the taxpayer with respect to the same
taxable year in the absence of a showing of fraud,
malfeasance, or misrepresentation of a material fact.
(g) Coordination with other proceedings under
this subchapter

96a
(1) In general
The treatment of any item that has been determined
pursuant to subsection (c) or (d) shall be taken into
account in determining the amount of any
computational adjustment that is made in connection
with a partnership proceeding under this subchapter
(other than under this section), or the amount of any
deficiency attributable to affected items in a
proceeding under section 6230(a)(2), for the taxable
year involved. Notwithstanding any other law or rule
of law pertaining to the period of limitations on the
making of assessments, for purposes of the preceding
sentence, any adjustment made in accordance with
this section shall be taken into account regardless of
whether any assessment has been made with respect
to such adjustment.
(2) Special rule in case of computational
adjustment
In the case of a computational adjustment that is
made in connection with a partnership proceeding
under this subchapter (other than under this section),
the provisions of paragraph (1) shall apply only if the
computational adjustment is made within the period
prescribed by section 6229 for assessing any tax under
subtitle A which is attributable to any partnership
item or affected item for the taxable year involved.
(3) Conversion to deficiency proceeding
If—
(A) after the notice referred to in subsection (a) is
mailed to a taxpayer for a taxable year but before the
expiration of the period for filing a petition with the

97a
Tax Court under subsection (c) (or, if a petition is filed
with the Tax Court, before the Tax Court makes a
declaration for that taxable year), the treatment of any
partnership item for the taxable year is finally
determined, or any such item ceases to be a
partnership item pursuant to section 6231(b), and
(B) as a result of that final determination or
cessation, a deficiency can be determined with respect
to the items that are the subject of the notice of
adjustment, the notice of adjustment shall be treated
as a notice of deficiency under section 6212 and any
petition filed in respect of the notice shall be treated
as an action brought under section 6213.
(4) Finally determined
For purposes of this subsection, the treatment of
partnership items shall be treated as finally
determined if—
(A) the Secretary enters into a settlement
agreement (within the meaning of section 6224) with
the taxpayer regarding such items,
(B) a notice of final partnership administrative
adjustment has been issued and—
(i) no petition has been filed under section 6226
and the time for doing so has expired, or
(ii) a petition has been filed under section 6226 and
the decision of the court has become final, or
(C) the period within which any tax attributable to
such items may be assessed against the taxpayer has
expired.

98a
(h) Special rules if Secretary
determines applicable procedure

incorrectly

(1) Special rule if Secretary erroneously mails
notice of adjustment
If the Secretary erroneously determines that
subchapter B does not apply to a taxable year of a
taxpayer and consistent with that determination
timely mails a notice of adjustment to the taxpayer
pursuant to subsection (a) of this section, the notice of
adjustment shall be treated as a notice of deficiency
under section 6212 and any petition that is filed in
respect of the notice shall be treated as an action
brought under section 6213.
(2) Special rule if Secretary erroneously mails
notice of deficiency
If the Secretary erroneously determines that
subchapter B applies to a taxable year of a taxpayer
and consistent with that determination timely mails a
notice of deficiency to the taxpayer pursuant to section
6212, the notice of deficiency shall be treated as a
notice of adjustment under subsection (a) and any
petition that is filed in respect of the notice shall be
treated as an action brought under subsection (c).
(Added Pub. L. 105–34, title XII, § 1231(a), Aug. 5,
1997, 111 Stat. 1020.)
EFFECTIVE DATE
Section applicable to partnership taxable years
ending after Aug. 5, 1997, see section 1231(d) of Pub.
L. 105–34, set out as an Effective Date of 1997
Amendment note under section 6211 of this title.

99a
SECTION REFERRED TO IN OTHER SECTIONS
This section is referred to in sections 6501, 7459,
7482 of this title.

100a
__________
APPENDIX E
__________
Sec. 6226.
ALTERNATIVE TO PAYMENT OF IMPUTED
UNDERPAYMENT BY PARTNERSHIP.
(a) In General.-- If the partnership-(1) not later than 45 days after the date of the
notice of final partnership adjustment, elects the
application of this section with respect to an imputed
underpayment, and
(2) at such time and in such manner as the
Secretary may provide, furnishes to each partner of
the partnership for the reviewed year and to the
Secretary a statement of the partner’s share of any
adjustment to income, gain, loss, deduction, or credit
(as determined in the notice of final partnership
adjustment), section 6225 shall not apply with respect
to such underpayment and each such partner shall
take such adjustment into account as provided in
subsection (b). The election under paragraph (1) shall
be made in such manner as the Secretary may provide
and, once made, shall be revocable only with the
consent of the Secretary.
(b) Adjustments Taken Into Account By Partner.-(1) Tax Imposed In Year of Statement.-- Each
partner’s tax imposed by chapter 1 for the taxable year
which includes the date the statement was furnished
under subsection (a) shall be increased by the

101a
aggregate of the adjustment amounts determined
under paragraph (2) for the taxable years referred to
therein.
(2)
Adjustment Amounts.-The adjustment
amounts determined under this paragraph are-(A) in the case of the taxable year of the partner
which includes the end of the reviewed year, the
amount by which the tax imposed under chapter 1
would increase if the partner’s share of the
adjustments described in subsection (a) were taken
into account for such taxable year, plus
(B) in the case of any taxable year after the
taxable year referred to in subparagraph (A) and
before the taxable year referred to in paragraph (1),
the amount by which the tax imposed under chapter 1
would increase by reason of the adjustment to tax
attributes under paragraph (3).
(3) Adjustment of Tax Attributes.-- Any tax
attribute which would have been affected if the
adjustments described in subsection (a) were taken
into account for the taxable year referred to in
paragraph (2)(A) shall-(A) in the case of any taxable year referred to in
paragraph (2)(B), be appropriately adjusted for
purposes of applying such paragraph, and
(B) in the case of any subsequent taxable year,
be appropriately adjusted.

102a
Sec. 6235.
PERIOD OF LIMITATIONS
ADJUSTMENTS.

ON

MAKING

(a) In General.-- Except as otherwise provided in this
section, no adjustment under this subpart for any
partnership taxable year may be made after the later
of-(1) the date which is 3 years after the latest of-(A) the date on which the partnership return
for such taxable year was filed,
(B) the return due date for the taxable year, or
(C) the date on which the partnership filed an
administrative adjustment request with respect to
such year under section 6227, or
(2) in the case of any modification of an imputed
underpayment under section 6225(c), the date that is
270 days (plus the number of days of any extension
consented to by the Secretary under paragraph (4)
thereof) after the date on which everything required to
be submitted to the Secretary pursuant to such section
is so submitted, or
(3)
in the case of any notice of a proposed
partnership adjustment under section 6231(a)(2), the
date that is 270 days after the date of such notice.
(b) Extension By Agreement.-- The period described in
subsection (a) (including an extension period under
this subsection) may be extended by an agreement

103a
entered into by the Secretary and the partnership
before the expiration of such period.
(c) Special Rule In Case of Fraud, Etc.-(1) False Return.-- In the case of a false or
fraudulent partnership return with intent to evade
tax, the adjustment may be made at any time.
(2) Substantial Omission of Income.-- If any
partnership omits from gross income an amount
properly includible therein and such amount is
described in section 6501(e)(1)(A), subsection (a) shall
be applied by substituting “6 years” for “3 years”.
(3) No Return.-- In the case of a failure by a
partnership to file a return for any taxable year, the
adjustment may be made at any time.
(4) Return Filed By Secretary.-- For purposes of this
section, a return executed by the Secretary under
subsection (b) of section 6020 on behalf of the
partnership shall not be treated as a return of the
partnership.
(d) Suspension When Secretary Mails Notice of
Adjustment.-- If notice of a final partnership
adjustment with respect to any taxable year is mailed
under section 6231, the running of the period specified
in subsection (a) (as modified by the other provisions
of this section) shall be suspended-(1) for the period during which an action may be
brought under section 6234 (and, if a petition is filed
under such section with respect to such notice, until
the decision of the court becomes final), and

104a
(2) for 1 year thereafter.

105a

106a

